USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit

No. 17-12653

District Court Docket No.
1:15-cr-00088-CG-B-2
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
XIULU RUAN,
JOHN PATRICK COUCH,
Defendants - Appellants.

Appeals from the United States District Court for the
Southern District of Alabama

JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: July 10, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 1 of 137

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT-,

No. 17-12653

D.C. Docket No. l:15-cr-00088-CG-B-2
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
XIULU RUAN,
JOHN PATRICK COUCH,
Defendants - Appellants.

Appeals from the United States District Court
for the Southern District of Alabama
(July 10, 2020)
Before WILSON and NEWSOM, Circuit Judges, and COOGLER,* District Judge.
COOGLER, District Judge:

Honorable L. Scott Coogler, United States District Judge for the Northern District of
Alabama, sitting by designation.

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 2 of 137

Following a seven-week trial in the United States District Court for the
Southern District of Alabama, pain management physicians Xiulu Ruan (“Ruan”)
and John Patrick Couch (“Couch”) (together, “the appellants”) were convicted by a
jury of conspiring to run a medical practice constituting a racketeering enterprise in
violation of the Racketeer Influenced and Corrupt Organizations Act (“RICO”), 18
U.S.C. § 1962(d); conspiring to violate the Controlled Substances Act, 21 U.S.C.
§§ 846 & 841(a)(1), by dispensing Schedule II drugs, fentanyl, and Schedule III
drugs outside the usual course of professional practice and without a legitimate
medical purpose; conspiracies to commit health care fraud and mail or wire fraud
in violation of 18 U.S.C. §§ 1347(a) & 1349; and conspiracies to receive kickbacks
in relation to a Federal health care program in violation of 18 U.S.C. § 371 and 42
U.S.C. § 1320a-7b(b). In addition, Ruan and Couch were individually convicted of
multiple counts of substantive drug distribution in violation of the Controlled
Substances Act, 21 U.S.C. § 841(a)(1). Ruan was further convicted of a money
laundering conspiracy in violation of 18 U.S.C. § 1956(h) and two counts of
substantive money laundering in violation of 18 U.S.C. § 1957. Ruan was
sentenced to 252 months’ imprisonment, to be followed by four years of
supervised release, and ordered to pay over $15 million in restitution. Couch was
sentenced to 240 months’ imprisonment, followed by four years of supervised
release, and ordered to pay over $16 million in restitution.
2

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 3 of 137

In this broad-sweeping appeal, Ruan and Couch challenge their convictions,
various evidentiary rulings at trial, and the district court’s jury instructions. Ruan
also challenges his sentence and the district court’s order of restitution. After
thorough review and having had the benefit of oral argument, we affirm in large
part the decisions of the district court, but we reverse the district court’s ruling that
sufficient evidence supported one of the illegal kickback conspiracy convictions.
We thus remand the cases for resentencing.
I.

Background
A.

Procedural History

A Southern District of Alabama grand jury indicted Ruan and Couch on
April 30, 2015, charging conspiracy to distribute controlled substances, 21 U.S.C.
§ 846, and conspiracy to commit health care fraud, 18 U.S.C. § 1347(a). After a
raid of their medical clinic and pharmacy by the Federal Bureau of Investigation
(“FBI”), a Superseding Indictment issued on April 28, 2016, charging 22 counts.
The Superseding Indictment alleged that Ruan and Couch’s medical clinic was
essentially a “pill mill,” which prescribed controlled substances for no legitimate
medical purpose or outside the usual course of professional practice. Ruan and
Couch were both charged with one count of conspiracy to commit racketeering, 18
U.S.C. § 1962(d) (Count 1); three counts of conspiracies to violate the Controlled
Substances Act by dispensing Schedule II and III controlled substances and
3

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 4 of 137

fentanyl outside the usual course of professional practice and without a legitimate
medical purpose, 21 U.S.C. §§ 841(a)(1) & 846 (Counts 2-4); one count of
conspiracy to commit health care fraud, 18 U.S.C. § 1347(a) (Count 15); three
counts of conspiracy to violate the Anti-Kickback statute, 18 U.S.C. § 371 (Counts
16-18); and one count of conspiracy to commit wire and mail fraud, 18 U.S.C. §
1349 (Count 19). Couch was charged with five additional counts of illegal drug
distribution involving prescribing controlled substances to named individuals, 18
U.S.C. § 2(a) and 21 U.S.C. § 841(a)(1) (Counts 5-7 and 13-14). Ruan was
charged with five additional counts of illegal drug distribution involving
prescribing controlled substances to named individuals, 21 U.S.C. § 841(a)(1)
(Counts 8-12), and three counts of conspiracy to commit money laundering and
substantive money laundering, 18 U.S.C. §§ 1956(h) & 1957 (Counts 20-22). The
Superseding Indictment also contained numerous forfeiture provisions.
Ruan and Couch pled not guilty. Their joint trial commenced in Mobile,
Alabama, on January 6, 2017, and lasted 31 days. The government called more
than 50 witnesses, including 15 of their former patients or their relatives; 12 of
their former staff members, including nurse practitioners with whom they had
worked closely; four pharmaceutical company employees; seven representatives
from various medical insurance companies; three medical experts; the director of
the Alabama Department of Public Health; and 12 law enforcement agents and
4

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 5 of 137

analysts. The government also introduced numerous charts from insurers and the
Drug Enforcement Administration (“DEA”) reflecting the volume and cost to
insurers of prescriptions for controlled substances that Ruan and Couch had
written, compared to other physicians in Alabama and nationally. Both Ruan and
Couch testified in their defense, and they also called five former patients, 11
additional former employees, and three medical experts of their own. The
government dismissed Count 18 at the close of its case. Ruan and Couch moved
for judgments of acquittal under Federal Rule of Criminal Procedure 29 at the
close of the government’s case, and again at the close of all the evidence, and the
district court denied their motions.
On February 23, 2017, the jury convicted Couch on all counts against him.
Ruan was acquitted on Count 10 but convicted on all other counts. Ruan and
Couch renewed their motions for judgment of acquittal or new trial, and the district
court denied the motions.
On May 25 and 26, 2017, the district court imposed below-guidelines
sentences of 252 (Ruan) and 240 (Couch) months of imprisonment, each to be
followed by four years of supervised release. Ruan was ordered to pay
$15,239,369.93 in restitution and Couch $16,844,569.03. Ruan and Couch are
currently incarcerated. This appeal followed.

As necessary, additional procedural details are set forth with each issue below.
5

USCA11 Case: 17-12653

B.

Date Filed: 07/10/2020

Page: 6 of 137

Trial Evidence2
1.

The Appellants’ Clinic and Pharmacy

The appellants were board-certified doctors specializing in pain
management. They co-owned a medical clinic, Physicians Pain Specialists of
Alabama (“PPSA”), and a pharmacy, C&R Pharmacy (“C&R”). PPSA had two
locations in Mobile, Alabama, one on Springhill Avenue and one on Airport
Boulevard. C&R was connected to PPSA’s Airport Boulevard location, and its sole
business was dispensing drugs prescribed at PPSA. The Springhill office contained
an in-office dispensary for workers’ compensation patients. Ruan worked primarily
at the Airport location and Couch primarily at Springhill, but once a week they
would switch locations. In May 2015, when an FBI raid shut down PPSA and
C&R, they had 57 employees and served over 8,000 patients.
The appellants’ medical practice was lucrative. From January 2011 to May
2015, the period covered by the Superseding Indictment, Couch made over $3.7
million from PPSA, and Ruan made over $3.9 million. C&R received a service fee
for each prescription it filled—more than 70,000 during those years—netting Ruan
and Couch each more than $555,000 from their pharmacy.
2.

The Controlled Substances Act

2
Because the appellants challenge the sufficiency of the evidence against them at trial, the
following facts have been established by viewing the evidence presented at trial in the light most
favorable to the government. See United States v. Schlei, 122 F.3d 944, 952 (11th Cir. 1997).
6

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 7 of 137

On the first day of trial government witnesses told the jury that the
Controlled Substances Act categorizes controlled substances into five schedules,
based on their abuse potential and medical value. The Act makes it a crime for
anyone to, among other things, dispense a controlled substance, with the exception
that licensed health care professionals may dispense Schedule II, III, and IV
controlled substances with a prescription. See 21 U.S.C. §§ 841(a)(1), 828.
However, such prescriptions are only lawful if they are issued for a legitimate
medical purpose in the usual course of the licensed health care professional’s
professional practice. See 21 C.F.R. § 1306.04.
From January 2011 to May 2015, the appellants wrote nearly 300,000
prescriptions for controlled substances, over half of which were Schedule II drugs.
Schedule II drugs are the most powerful and dangerous drugs that can be lawfully
prescribed, and they include many pharmaceutical opioids such as fentanyl,
hydrocodone, morphine, oxycodone, methadone, hydromorphone, and
oxymorphone. Opioids are dangerous because, while they can help mask pain,
their use can create physical and psychological dependence that can lead to
addiction. Side effects from opioid use include lethargy, confusion, falls, and
depressed breathing.
Opioids can be particularly dangerous when combined with two Schedule IV
controlled substances: benzodiazepines and carisoprodol. Benzodiazepines, such as
7

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 8 of 137

Xanax and Valium, are psychoactive drugs that treat a wide range of conditions
including insomnia or anxiety. Carisoprodol is a muscle relaxant marketed under
the brand name Soma. The combination of these three types of drugs—which the
government referred to as the “Holy Trinity” at trial—is popular among substance
abusers because of its euphoric effect, yet it is highly addictive and can increase
the chances of the user’s death. Together, the appellants prescribed nearly 12.5
million units of Schedule II opioids, and opioid prescriptions accounted for nearly
75% of their total controlled-substance prescriptions. Most of the rest of their
controlled-substance prescriptions were for benzodiazepines and Soma, the other
components of the “Holy Trinity.”
3.

Ruan and Couch Prescribed Millions of Doses of Opioids
Based on Their Financial Interests

The government sought to prove that Ruan and Couch prescribed millions of
doses of opioids and other controlled substances outside the usual course of
professional practice and, thus, illegally. Over Ruan and Couch’s objection, the
government used Alabama’s Prescription Database Monitoring Program
(“PDMP”), a database of all controlled substance prescriptions dispensed statewide
that is available to doctors and other health personnel, to pull Ruan and Couch’s
prescribing data. The government focused especially on Ruan and Couch’s
frequent prescribing of a version of fentanyl called transmucosal immediate-release
fentanyl (“TIRF”), which the Food and Drug Administration (“FDA”) had
8

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 9 of 137

approved in 2011 to treat “breakthrough pain in adult cancer patients who are
already receiving and who are tolerant to around-the-clock opioid therapy.” The
two types of TIRFs that Ruan and Couch prescribed were Subsys, manufactured by
Insys Therapeutics (“Insys”), and Abstral, manufactured by Galena Biopharma
(“Galena”). Subsys is an under-the-tongue oral spray, and Abstral is an under-thetongue dissolving tablet, but both penetrate the blood-brain barrier more quickly
than medications absorbed digestively, working in five minutes compared to 45
minutes for most other opioids. Not surprisingly, TIRFs are expensive, with
average doses costing anywhere from $3,000 to over $20,000 per month. And
although it is not illegal for a doctor to prescribe TIRFs “off-label” to patients who
do not have cancer, insurers would usually only pay for on-label uses of TIRFs.
From January 2011 to May 2015, Ruan and Couch prescribed more than 475,000
doses of TIRFs to over 1,000 patients. From 2012 to 2014, they sharply increased
both the number of patients receiving TIRF prescriptions and the dosages
prescribed. This practice placed the appellants among the top TIRF prescribers
nationwide: they often surpassed the next highest prescriber by more than double.
Despite these high numbers of TIRF prescriptions, no more than 15% of PPSA
patients had cancer.3

3
For each doctor, the government used prescription records to identify the 25 patients
receiving the most Abstral and Subsys prescriptions. Comparing those lists to PPSA’s medical
records showed that more than half of those patients—14 on each list—did not have cancer and
9

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 10 of 137

One of the ways in which the government sought to prove that Ruan and
Couch’s prescribing of Abstral and Subsys deviated from the usual course of
professional practice was that their prescribing habits tracked financial incentives
rather than their patients’ medical needs. One of the government’s medical experts,
Dr. Tricia Aultman (“Dr. Aultman”), testified that prescribing drugs based on
one’s own financial interest is outside the usual course of professional practice.
i.

The Appellants’ Investments in Galena Stock

A DEA agent created a line chart showing the micrograms4 of Abstral
prescribed by Ruan and Couch each month from January 2011 to May 2015. Ruan
and Couch prescribed very little Abstral until late 2013—the most Couch
prescribed was 76,800 meg one month, and some months he did not prescribe any,
and Ruan’s prescriptions maxed out at 128,000 meg per month. However, in April
2013, Galena initiated a study to gather data on how Abstral was working on
patients. As former Galena sales representative David Corin (“Corin’’) testified,
Galena offered doctors $500 per patient to enroll in the study but limited it to 25
patients per doctor. Couch negotiated with Galena for an exception to enroll up to
75 of his patients for a fee of $2,500 per patient. Immediately after Galena

were thus receiving TIRFs off-label. For those 28 patients, insurers paid more than $5.5 million
for Abstral and Subsys during the time covered by the Superseding Indictment.
4
Fentanyl is so powerful that, unlike other opioids, it is measured in micrograms (one
millionth of a gram) (“meg”), not milligrams (“mg”).
10

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 11 of 137

approved that arrangement, Couch began prescribing over 1.5 million meg of
Abstral per month.
Similarly, in September 2013, Ruan prescribed only 25,600 meg of Abstral.
But in October 2013, his prescriptions rose to 192,000 meg. Around that time, a
Galena sales representative visited PPSA in Mobile. Shortly thereafter, Couch and
Ruan began purchasing Galena stock. Between November 2013 and January 2014,
they purchased more than $1.3 million of stock, both individually and through
PPSA. In a February 2, 2014, email to Couch, Ruan wrote that they could “play a
big role” in increasing the value of Galena stock. A few day later Ruan emailed
another doctor, writing that although he had never purchased stock before, he
decided to invest in Galena to help “generate enough profit to pay for [his] divorce
settlement.” And in a February 17, 2014, email between Ruan and a colleague,
Ruan indicated that he suspected Galena would have a “substantial market share
growth at the end of March.” Ruan’s prescribing of Abstral greatly increased
during this time. For example, in January 2014, Ruan prescribed over 1.4 million
meg; in February he prescribed over 2.3 million meg; and in March his
prescriptions rose to over 2.6 million meg. Galena’s stock price increased
dramatically from October 2013 to the start of 2014, more than tripling in price.
However, Corin testified that in January 2014, members of Galena’s board
of directors were given a “blackout period” in which they were briefly permitted to
11

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 12 of 137

sell their stock; they did so—“millions of dollars’ worth”—and the price “dropped
dramatically.” Ruan and Couch “were very upset,” and a Galena representative
flew to Mobile in February 2014 to calm them down because they were “important
individuals for Galena” and the company’s “highest Abstral prescribes.” Ruan and
Couch demanded that Galena fire its CEO and board. Between March and October
2014, their Abstral prescribing plummeted. Ruan reached a low of 624,000 meg in
August 2014, but that month, Galena fired its CEO, and in November, the new
CEO came to Mobile to meet Ruan and Couch at Ruan’s demand. After that visit,
their Abstral prescriptions again spiked, with Couch prescribing over 2 million
meg and Ruan prescribing over 1.8 million meg in November. A similar dip in
Ruan and Couch’s Abstral prescribing in February 2015 matched a significant dip
in Galena’s stock price in February 2015, followed by another visit by the CEO to
Mobile, and a rebound in Ruan and Couch’s prescribing.
Corin also explained that Galena initiated a voucher program in August
2013, where patients could receive up to three vouchers for 32 tablets of Abstral.
Because TIRFs were so expensive, the purpose of the program was to help patients
afford the drugs while they awaited insurance approval and to allow doctors to
titrate patients onto the medication, with one voucher being issued at a time until
an appropriate dose was found for a full prescription. However, Ruan and Couch
would use all three prescriptions at once. Galena started losing money as a result of
12

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 13 of 137

this practice because Galena would pay for all 96 pills instead of whatever
vouchers were needed to titrate the patients, and Couch and Ruan were the top two
prescribers in the country, accounting for 30% of the total prescriptions for
Abstral. Under the voucher program, the pharmacy filling the prescriptions got
paid the same as if the prescription was fully covered by insurance. And 91% of
the Subsys and Abstral prescriptions Ruan and Couch wrote were filled by their
patients at their own pharmacy, C&R. Galena had to abandon the voucher program
in March 2014, and Ruan and Couch slowed their prescribing of Abstral in
response to the cessation of the voucher program.
When PPSA was shut down in May 2015, national Abstral sales dropped
“significantly.” In fact, Galena was forced to sell its license for Abstral because it
could not make up the lost revenue.
li.

The Appellants’ Participation in Insys’s Speaker
Program

Natalie Perhacs (“Perhacs”), a former sales representative for Insys, testified
that Insys also sought to influence Ruan and Couch’s prescribing with money.
Perhacs first met Ruan and Couch when she was a sales representative for a
respiratory equipment company. Eventually, Ruan recommended Perhacs for a job
at Insys. Perhacs became the Insys drug representative for Ruan and Couch. She
explained that Insys had created a speaker program in August 2012 in which it paid
doctors to talk about Subsys to other doctors, usually over a meal at a restaurant.
13

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 14 of 137

Pharmaceutically-funded speaker programs are lawful, but payments made to
doctors are required to be disclosed to the public. Both Ruan and Couch had been
speakers for Insys since before she started. The stated goal of the speaker program
was to educate doctors and get them to write more prescriptions, but Perhacs stated
that Ruan and Couch would do speaker programs when no other prescribers
showed up. She stated that PPSA was one of the top ten prescribers of Subsys, and
Ruan and Couch were “whales” (the top prescribing doctors). She indicated that
the actual purpose of the speaker program was to influence Ruan and Couch into
continuing to prescribe Subsys, and Ruan and Couch were paid for their
involvement in these dinners. In 2013, Ruan and Couch were each paid to host one
program per week, and although no prescribers, or the same prescribers, would
show up to speaking programs, they were rarely canceled because the point was
not to educate others but to “influence how many prescriptions [the appellants]
write.” If a program was canceled, Perhacs could be fired or face a financial
penalty.
In November 2013, Ruan approached a Galena sales representative about
becoming a speaker for Abstral because of his high-prescribing of TIRF
medications, generally. However, Galena decided it would not make sense to have
Ruan be a speaker because there were no other doctors in the area prescribing

14

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 15 of 137

TIRF medications, and the purpose of the speaker program was to educate other
doctors.
In early 2014, after the appellants started prescribing more Abstral, the
competing TIRF medication, Insys employees grew concerned about losing market
share. On an email including top Insys executives, the Vice President of Sales said
that “Dr. Ruan and Dr. Couch are killing us.” In April 2014, Insys reduced, but did
not stop, the appellants’ speaking programs.
A few months later, in June 2014, Ruan learned that a Michigan doctor, the
top national Subsys prescriber, had been indicted for receiving kickbacks from
Insys in part related to his acceptance of honoraria received from the speaker
program. In that criminal complaint, which Ruan saw, Ruan and Couch are
identified by prescriber number as the number three and five prescribers,
respectively. The next day, Ruan began planning for Insys to donate all of his
subsequent speaker fees to universities, in one case establishing a scholarship in his
name.
Nonetheless, Insys paid Couch more than $100,000 and Ruan over $166,000
for speaking engagements from 2013 until the FBI raided PPSA in May 2015. In
2016, Perhacs pled guilty to conspiracy to violate the Anti-Kickback statute by
paying kickbacks to the appellants to prescribe Subsys through the speaker
program.
15

USCA11 Case: 17-12653

in.

Date Filed: 07/10/2020

Page: 16 of 137

The Appellants Ordered Unnecessary Drug Tests and
Used Their Pharmacy Inappropriately

Prescribing certain drugs when they had a financial self-interest to do so was „
not the only example of illegal conduct by Ruan and Couch: the government also
sought to prove that they ordered unnecessary drug tests for patients solely because
they would generate revenue. Government expert Dr. Rahul Vohra (“Dr. Vohra”)
explained that in pain management, drug testing patients can be a valuable clinical
tool because it can tell a doctor whether the patients are not taking the drugs
prescribed or are taking other drugs that they should not be. This testing comes in
two forms: an in-office “cup” screening, which is instantaneous but less accurate,
and an off-site test with gas chromatography and mass spectroscopy (GC-MS),
which takes longer but is more accurate. In 2013, Ruan began ordering off-site
GC-MS testing for every patient because, in his words, off-site testing “generates
revenue,” while in-office urine tests “pays nothing.” Ruan negotiated with the off­
site drug testing company, threatening to work with a competitor unless the
company could start immediately because he was “losing about $8,000 a day from
not testing and .. . cannot just wait.” Later that year, when PPSA switched to an
electronic medical records system, and nurses forgot to order the GS-MS tests in
the system for every patient, Ruan forwarded to Couch a discussion from the
testing company about the missing orders, estimating an annual lost profit of over
$800,000. He told Couch, “[I]f we do not run GC-MS, there is no revenue.”
16

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 17 of 137

Dr. Aultman and Dr. Vohra also explained that the proper way for a doctor
to use drug screening is to counsel patients whose tests are inconsistent, indicating
potential diversion or abuse of drugs, or to eventually “fire” them as patients. Yet
the government presented evidence that Ruan and Couch rarely fired patients
whose drug screens were inconsistent because they would lose the revenue. For
example, a patient who was selling his medications was released from the practice
only after his sixth or seventh inconsistent drug test using his five-year-old son’s
urine. Another patient, a former felon with numerous drug screens not showing
prescribed drugs, was also continuously prescribed more opioids. An email Ruan
wrote to a medical student was introduced, in which Ruan stated that “[i]n private
practice the more you fire, the more revenue you lose.” Instead, he opined, “when
one patient tests positive for street drugs, that gives you more reason to do more
frequent urine drug screens, which pays three times more than an office visit.”
While Ruan and Couch did not often fire patients with inconsistent drug screens,
they did fire patients whose insurance would no longer pay for their TIRFs. For
example, despite a history of drug abuse and three trips to the emergency room
caused by her overusing TIRFs, Ruan dismissed patient Kathleen Bums only after
her insurance stopped covering Subsys.
The government also put on evidence that Ruan and Couch used their
pharmacy, C&R, inappropriately. Insys helped them prescribe more Subsys by
17

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 18 of 137

ensuring it would be in stock at C&R. C&R was “having trouble filling [Subsys] as
often as it was written.” This was even though, in 2014, C&R was ordering from
wholesalers more than 42 times as much Subsys as the average U.S. pharmacy.
Insys’s owner and its CEO came to Mobile, and it was arranged that C&R would
purchase Subsys directly from Insys, cutting out the wholesalers. Ruan and Couch
also asked Galena to cut out the wholesalers and ship Abstral directly to C&R, but
it refused. However, Galena did offer a rebate program under which C&R received
8.75% of the purchase price for all Abstral it dispensed. C&R dispensed nearly $13
million of Abstral, approximately half of which occurred after the rebate
agreement, making its rebate to C&R more than half a million dollars.
Additionally, Ruan and Couch often prescribed medications based solely on
what was in stock at C&R, rather than on the patient’s medical needs. Nurse
practitioners testified that Ruan “strongly encouraged” patients to use C&R and
that staff took patients’ prescriptions directly to C&R. One testified that Ruan
“wanted to know what we [C&R] had in stock” before writing prescriptions. Dr.
Greenberg opined that Ruan and Couch should have disclosed to patients that they
owned C&R, but they rarely did.
4.

Ruan and Couch Often Prescribed Opioids Without Seeing
Patients, Obtaining Informed Consent, or Keeping
Accurate Records

18

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 19 of 137

Another way that the government sought to establish that PPSA operated
outside the usual course of professional practice was to show that Ruan and Couch
prescribed powerful opioids without actually seeing patients. The government’s
medical experts testified that before prescribing controlled substances, a doctor
should see the patient, take a medical history, and do an exam. A doctor who
conducts a thorough evaluation of each patient can normally see 20 to 25 patients
per day, but PPSA routinely processed 150 to 200 patients daily, often quadruple­
booking patients for the same time. This worked because many PPSA patients
never saw Couch and rarely saw Ruan. In fact, one patient for whom Couch signed
multiple prescriptions and another patient’s wife who came to half of her
husband’s appointments could not identify Couch in court because they had never
met him. Others said they had met him only once, despite multiple PPSA visits
during which he signed prescriptions for them. Instead, patients were seen by nurse
practitioners who were not doctors, namely Justin Palmer, Stacy Madison,
Bridgette Parker, Matt Bean, and Sharon Noland.
The jury was able to see this practice firsthand as DEA task force officer
Patrick Kelley (“Kelley” or “Officer Kelley”) went undercover to PPSA as a
patient under the alias “Shawn Brennan” in August 2014. Kelley testified, and
undercover videos of his PPSA office visits were played for the jury. The DEA
arranged for a local chiropractor to refer Kelley to Couch with medical records,
19

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 20 of 137

including normal MRI results. Although Kelley was first turned away from PPSA
because he did not have insurance, he was admitted later that same day after the
chiropractor called PPSA to vouch for him. Rather than see Couch, Kelley saw a
nurse practitioner, Stacy Madison (“Madison), who took a brief medical history
from Kelley but did not question him about his pain levels, even though he had
deliberately left that question blank on the new patient form. Kelley was asked to
bend forward as far as he could without pain, and he was able to touch the floor.
Nonetheless, he was asked whether he had previously taken anything that helped
with his pain. Kelley started his answer with the caveat that he was “going to have
to admit to some criminal activity” and said that he had “blue” pills called
“Roxy”— purposefully using street names for Roxicodone 30 mg, an “immediate
release” version of oxycodone that is popular among substance abusers. Couch
made a 42-second appearance at the end of that visit and signed a 90-pill
prescription for Roxicodone 30 mg. Kelley returned for four more visits, never saw
Couch again, and received Roxicodone prescriptions each time. At his third visit,
the nurse practitioner, now Bridgette Parker (“Parker”), increased his dose to 110
pills. Kelley never filled the prescriptions, which a check of Alabama’s PDMP
would have revealed, and urine tests did not show the drugs in his system, but no
one at PPSA ever discussed that with him. Parker also gave Kelley signed
prescriptions, dated for a month later than his visit, although regulations provide
20

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 21 of 137

that physicians must write a separate prescription for each 30-day supply of a
Schedule II drug and prohibit a single prescription with refills. The prescriptions
Kelley received at three of these visits to PPSA were the basis for Couch’s
convictions for illegal drug distribution on Counts 5-7.
Two undercover DEA agents posed as patients of Ruan’s as well, but Ruan
never prescribed either patient opioids. The government moved in limine to
exclude videos of these visits, arguing that they did not show anything illegal and
Ruan was merely trying to prove that he practiced “good medicine.” The district
court agreed, so the jury never saw them.
Nurse practitioner Justin Palmer (“Palmer”) also offered extensive testimony
for the government, particularly about Couch’s practice. Palmer had worked at
PPSA since July 2010, first working with both Couch and Ruan but after about a
year working almost exclusively with Couch. Palmer stated that he would see
roughly 30 patients a day on Couch’s behalf, often starting hours before Couch
arrived at the office. Some patients believed Palmer was a doctor, referring to him
as “Dr. Justin.” Palmer’s visits were billed to insurance as if Couch was the one
seeing the patients. Palmer also wrote prescriptions for opioids under Couch’s
signature, even though Palmer was not authorized to prescribe Schedule II drugs.
When Couch went on vacation, “he would leave prescription pads that were
presigned so [Palmer] could write what [he] needed to.” Couch continued doing
21

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 22 of 137

this even after PPSA’s practice administrator told him it was illegal and risky. In
time, Palmer began forging Couch’s signature on prescriptions. PPSA and C&R
staff knew Palmer was doing this, and nurses and the pharmacist would ask him to
sign Couch’s name on prescriptions and records. At one point, Couch caught
Palmer forging his name on a prescription for Adderall, a Schedule II drug, and
fired him—but only for “ 10 minutes”—before deciding to give him a second
chance and rehiring him. Palmer stated that he believed that Couch continued to be
aware of his forgery because Palmer was seeing patients when Couch was on
vacation or out of the office. Palmer estimated that, between 2011 and 2012, he
had forged Couch’s signature 15 to 20 times a day.
Palmer also purchased Galena stock when Ruan and Couch did. After that,
he and Couch discussed candidates that they believed could be suitable for Abstral,
and it was suggested that Palmer find people to put on the drug. Palmer also
confirmed that he prescribed TIRF drugs to non-cancer patients for breakthrough
pain, such as migraines that did not respond to other medication.
Palmer testified that, while at PPSA, he observed what he believed to be
drug-seeking behavior from patients, such as patients needing more and more
medication, saying that they had lost medication, coming back early for refills, or
saying that they had new pain. He stated that he would often have to argue with

22

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 23 of 137

patients because he believed that their pain was not as severe as they were
reporting. The government asked:
Q:

Did you feel like you were overwriting?

A:

I did.

Q:

Approximately what percentage of the patients did you feel like
were overwritten?

A:

At least—at least half, half to maybe more.

Palmer also stole and abused medications from PPSA while working there.
After a PPSA employee caught Palmer actively injecting drugs while at work,
Couch suspended him with pay for two weeks. According to Palmer, nurse
practitioners Parker and Madison also used drugs while working for Couch. Prior
to trial, Palmer pled guilty in this action to conspiracy to distribute controlled
substances outside the usual course of professional practice and without a
legitimate medical purpose.
Nurse practitioner Sharon Noland (“Noland”) also testified for the
government. She had worked at PPSA since November 2011, working solely for
Ruan until May 2014. She testified that Ruan would prescribe certain drugs—
which Noland called the “flavor of the day”—based on what speaker programs he
was doing and what was being pushed by “drug reps,” even if the patient’s pain
was controlled on an existing regimen. She described that Ruan was “very
involved with the practice,” agreeing with the government’s characterization that
23

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 24 of 137

he tended to “micromanage.” Noland said that she witnessed Palmer signing
prescriptions as Couch.
Nurse practitioner Parker also testified. She had worked at PPSA from
September 2012 to January 2015, working solely for Couch since December 2013.
Parker testified that although TIRF medications were indicated for cancer, Ruan
used it off-label “for anything we could use it on.” Parker also testified that Ruan
would change patients’ medications, adding TIRF medications to their regimen,
when their prior medications were working. Ruan would also change patients from
one TIRF medication to another without explanation. Parker confirmed that Palmer
would sign Couch’s name on prescriptions, and she stated that she believed that
half of the patients at PPSA were overmedicated, basing her opinion on the fact
that the patients “looked . . . overmedicated, wanted more medication.” Parker also
abused prescription drugs while at work, even going into withdrawal, and Couch
agreed to help pay for her treatment. Like Palmer, Parker pled guilty prior to trial
in this case to conspiracy to distribute controlled substances.
Ruan was aware of Couch’s practice of permitting Palmer and others to see
patients and write prescriptions on Couch’s behalf. In July 2014, for example,
Ruan sent an email to Couch asking Couch to “talk to Justin [Palmer] on cutting
down” the amount of Roxicodone 30 mg he prescribed in light of news reports that
Alabama had the most opioid prescriptions in the country, which Ruan feared
24

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 25 of 137

could increase regulatory scrutiny of PPSA.5 Couch responded that “[w]e,”
meaning he and Palmer, would not “write triple digit dispentions [sic] of short
acting opioids.” And although Ruan usually signed his own prescriptions, he often
did so without seeing patients. Several nurse practitioners testified that they would
line up at Ruan’s office for him to sign prescriptions. One patient testified that he
did not meet Ruan until his “fourth or fifth visit” when Ruan “stuck his head in the
door” to introduce himself.
The government’s experts also explained to the jury that the usual course of
professional practice is to obtain patients’ informed consent before administering

5

The full email reads as follows:
I noticed you have quite a few [patients] on Roxicodone 30mg ... and Oxycontin
80mg.
Based on the diversion study done in FL pill mills, these two are the most[] thought
of in South FL, therefore [they are] considered [the] biggest reg [sic] flag[s]. I think
you should talk to Justin [Palmer] on cutting down Roxicodone 30mg usage,
especially [because] we are trying to convince [the] AL board of medical examiners
that we have a great system to keep [patients] satisfied [] and addicts out. We [do
not] want Roxicodone 30mg [to] mess things up, or at least contradictf].. what we
promote. I believe I have two [patients] on oxycodone 30mg, one of them is a W/C,
cannot handle all others. Also, try to use Oxycontin 60mg instead of 80mg may also
help.
Now, everyone in the nation knows that AL state prescribes the most pain killers in
the nation, [so] we will need to adjust our routine regimen a bit. One of the things
I have done is to wean off on [benzodiazepines], or ask their [primary care
physician] to write their [benzodiazepine], as [benzodiazepine] prescription is also
one of the things they look at and[] [w]e would rather be careftil than sorry. Please
remind [Palmer] about this stuff.

25

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 26 of 137

drugs and to have accurate records supporting every prescription. But there was
evidence presented that many patients received no warnings before receiving
prescriptions for powerful opioids. And many PPSA records contained numerous
errors, including not listing all prescriptions written or explaining why a
prescription was changed. Patients testified that exams and tests listed in their
medical records did not occur.
5.

Specific Prescriptions Were Illegal

Aside from evidence pertaining to how Ruan and Couch operated PPSA, the
government also put on evidence that Ruan and Couch treated approximately three
dozen specific PPSA patients outside the usual course of professional practice or
prescribed them medications for no legitimate medical purpose. Fourteen patients,
or their family members, testified at trial, criticizing the care they received. The
government’s three medical experts* Dr. Aultman, Dr. Vohra, and Dr. David
Greenberg (“Dr. Greenberg”), reviewed other patients’ files and offered their
opinions that the appellants’ treatment of those individuals did not meet the usual
course of professional practice standard. Evidence was presented that Ruan and
Couch rapidly increased patients’ opioid dosages beyond the minimum necessary
for pain control and failed to refer patients for mental-health treatment, surgery, or
physical therapy that their records indicated would have been appropriate. They
prescribed powerful opioids to people displaying red flags for diversion and abuse,
26

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 27 of 137

like criminal records, inconsistent drug screens, and drug-seeking behavior. Some
patients testified that they were overmedicated on opioids, making their lives
worse.
For example, patient Randall Blackmon (“Blackmon”) testified that he saw
Couch on his first visit to PPSA but only saw Palmer on subsequent visits.
Blackmon was prescribed morphine, methadone, and Subsys, even though he did
not have cancer; a physical examination was never conducted; and no one warned
him that Subsys could interact negatively with his existing medications. He took
1600 meg of Subsys four times a day for eight months, and he claimed that it made
him lethargic and ruined his quality of life. Towards the end of the eight months,
he presented to his primary care physician in such a dire state on Subsys that he
was taken directly to the emergency room. At that point he learned that Subsys was
only recommended for cancer patients, and his insurance stopped covering it. By
that time his insurance had paid over $21,500 per month for his Subsys.
Similarly, patient Joyce Barber (“Barber”) was never treated by Couch, only
Madison. She was prescribed Subsys with no warnings of the risks, and although
she did not have cancer, PPSA staff reported to her insurer that she had uterine
cancer so that her Subsys prescription would be covered. Barber testified that
Subsys made her feel like she was in a fog, and when Madison increased her

27

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 28 of 137

prescription from 200 meg to 400 meg, she became addicted, slept all day, and had
no quality of life.
Patient Tina Goellner never saw Couch as a patient of PPSA. She recounted
that, although she told staff at her first visit that she did not want to be prescribed
narcotics for her pain because she was worried about becoming addicted, she was
prescribed Subsys anyway and told that she should not worry because she did not
have an “addictive personality.” Subsys made her sleepy within two minutes of
taking it, and when her dosage was increased rapidly from 200 meg four times a
day, to 400 meg four times a day, to 800 meg four times a day, she began sleeping
all day.
Patient Tamison Blanks(“Blanks”) testified that she saw Couch once for five
minutes despite going to regular appointments at PPSA for over 11 months.
Although she was already taking Soma and hydrocodone (brand name Norco), she
was prescribed 600 meg of Subsys to use four times a day on her first visit, with no
warnings. She described her dosage as “very strong” and said that she became a
“monster” on Subsys. She described an instance where the Subsys numbed her to
the point that she lay on a heating pad for so long that it burnt her breast, requiring
a visit to the emergency room. She also said that at one of her appointments at
PPSA, nurse practitioner Parker had abused opioids to the point that she was
talking incoherently and fell asleep for about 10 minutes. Blanks commiserated
28

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 29 of 137

with Parker’s predicament because she had been in the same situation, and left that
appointment and immediately checked in to a rehabilitation center.
In an attempt to contrast testimony like the foregoing, Ruan and Couch
sought to call patients who would have testified that they approved of their
treatment by Ruan and Couch and that their treatment enabled them to have a
better quality of life. However, the district court ruled that because the appellants
were not charged with illegally prescribing medication to all of their patients, and
the government acknowledged that they had many patients to whom they provided
legitimate care,6 this “good patient” evidence was irrelevant to the charges and
would waste time in an already lengthy trial. They were thus prohibited from
calling patients not identified in the Superseding Indictment or otherwise presented
throughout the government’s case, but they were, however, able to call as
witnesses patients whose files were discussed by the government’s experts.
6.

The Appellants Engaged in Fraud, Accepted Kickbacks,
and Ruan Laundered the Proceeds

Aside from violating the Controlled Substances Act, the government also
presented evidence that the appellants engaged in fraud. Ruan and Couch lied to
insurers, telling them that some patients had cancer so that insurers would pay for
their TIRF prescriptions. BlueCross BlueShield of Alabama (“BCBS”), which

6
Indeed, despite the Superseding Indictment calling PPSA a “pill mill,” by the time of trial
the government began referring to it as a “money mill” instead.
29

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 30 of 137

insured a large portion of PPSA’s patients, paid less for nurse practitioner visits
than for doctor visits and had a policy requiring a physician to actually see a
patient before billing for services under the physician’s name, yet Ruan and Couch
routinely billed BCBS for office visits conducted entirely by nurse practitioners
under the doctor’s identification number. The appellants also billed for more
complex office visits than they actually conducted, resulting in more revenue.
To support the charges alleging conspiracies involving kickbacks, Perhacs
testified that the fees Ruan and Couch received from the Insys speaking
engagements were solely to induce them to prescribe more Subsys. Separately, the
government sought to prove that the company that managed PPSA’s in-house
workers’ compensation dispensary gave illegal kickbacks to Ruan and Couch in
exchange for referring their patients. Christopher Manfuso (“Manfuso”) testified
that Ruan and Couch treated patients with work-related injuries covered by
workers’ compensation insurance, which most workers get through a state
program. For patients’ convenience, Alabama’s workers’ compensation program
permits doctors to have an in-office dispensary for workers’ compensation patients.
Unlike a pharmacy, a dispensary provides only prepackaged medication. Insurers,
including the workers’ compensation program, “apply a steep discount” to
medication dispensed at a pharmacy and billed electronically. But in a dispensary,
the state sets the prices for medications, and Alabama’s fee schedule is “quite
30

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 31 of 137

generous compared to commercial insurance.” Accordingly, “there’s more money
to be made” with a dispensary than sending workers’ compensation patients to a
pharmacy, even one owned by the doctor; the revenues can be “about a hundred
percent higher.”
The appellants ran such a dispensary at PPSA’s Springhill location to
dispense drugs to patients covered by workers’ compensation insurance. In 2011,
Industrial Pharmacy Management (“IPM”) approached the appellants about taking
over the management of their dispensary. When working with an outside company
like IPM to manage a dispensary, the management company usually fronts the
money to purchase the medications under the doctor’s DEA number and then
reimburses itself from the gross receipts. The management company then deducts
its management fee, usually 30%, and any additional costs, and the doctor is left
with the remaining profit. With their previous management company, Ruan had
been receiving around $40,000 a month in profit from PPSA’s dispensary. To
“induce [the appellants] to sign up with” IPM, Manfuso, an IPM representative,
offered to deviate from the standard payment model and guarantee Ruan $45,000 a
month—regardless of how much or how little the dispensary actually profited—
because it was “the only way [he] could get the business.” Over the next two years,
Ruan executed several variations of this contract with IPM, negotiating on behalf
of both himself and Couch. Ruan’s guarantees fluctuated between $45,000 and
31

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 32 of 137

$53,000 a month. Couch received guaranteed payments in the $15,000-to-$20,000
range. To hide this difference from Couch, Ruan insisted that Manfuso send the
checks to his house, not to PPSA.
After several years, the FBI raided and shut down IPM for paying kickbacks,
and Michael Drobot, Manfuso’s direct boss at IPM, pled guilty to providing
kickbacks in a California prosecution. Manfuso then opened his own company,
Comprehensive RX Management (“CRM”). Ruan demanded even higher
guarantees from CRM, upwards of $80,000 a month at one point. All told, Ruan
received more than $2.4 million and Couch received nearly $1 million from IPM
and CRM.
Manfuso recalled that his interactions with Ruan were “[e]xtremely atypical”
of the hundreds of other doctors with whom Manfuso worked. In determining how
to stock the formulary (the dispensary’s inventory of drugs), Ruan was interested
in the profit margins of various drugs, not clinical information. Manfuso also
ultimately pled guilty to violating the Anti-Kickback statute.
Finally, to support the three money laundering counts, the government
presented evidence that Ruan had 23 different bank accounts and used proceeds
from illegal activities to purchase two luxury cars, worth over $100,000 each.
7.

The Defense Case

32

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 33 of 137

Ruan and Couch testified in their defense, both stating that their various
policies and practices were within the usual course of professional practice. Couch
denied ever giving Palmer permission to sign his name on a prescription. On crossexamination, the government asked Ruan about the email that he sent to Couch
regarding Palmer writing fewer Roxicodone prescriptions. The following exchange
occurred:
Q:

Okay. Now, is this one of the things you told [Couch] is: Please
remind [Palmer] about this stuff.

A:

That’s what it said.

Q:

Because you knew that [Palmer] was writing [prescriptions for
Roxicodone]; correct?

A:

He was initiating, I thought, not that he was—he saw the follow
up and he initiated it. Dr. Couch had to approve. So if he
initiated it, Dr. Couch do [sic] not want to turn it down.

Q:

But you had knowledge that [Palmer] was—you wanted
[Palmer] to cut down the [Roxicodone]; is that correct?

A:

Initially, yes. That’s my intention; that’s right.

Q:

And Dr. Couch told you back that he reviewed it with [Palmer]
and it says: We do not write triple digits; is that correct?

A:

Yes, that’s what it says.

Q:

It says “we?”

A:

Right.

33

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 34 of 137

Ruan and Couch also called various PPSA employees and five patients
identified by the government who testified favorably as to their course of treatment
at PPSA. They called three experts, Dr. Carol Warfield (“Dr. Warfield”), Dr.
Christopher George Gharibo, and Dr. Jeffrey A. Gudin. Dr. Warfield opined that
Dr. Couch’s prescribing habits were within the usual course of professional
practice and for a medical purpose. Specifically, Dr. Warfield reviewed files for
five of Couch’s patients, and she testified that the medications Couch prescribed
were in the usual course of medical practice and for a legitimate purpose. The other
experts testified similarly.7
C.

Forfeiture and Ruan’s Sentence

Immediately following the verdict, Ruan signed a forfeiture agreement,
stipulating that he “w[ould] not oppose the entry of a Preliminary Order of
Forfeiture, forfeiting the above-listed assets and sums of money.” He agreed to
forfeit various bank accounts, two real properties, and 18 cars, and to the entry of a
money judgment “for a sum of money of at least $5,000,000.” The following week,
the district court entered a Preliminary Order of Forfeiture pursuant to this
agreement. This order became final at sentencing.
In Ruan’s presentence investigation report (“PSR”), the probation officer
applied a base offense level of 38 under U.S.S.G. § 2S1.1, based on an underlying

Where necessary below, additional trial evidence is discussed regarding some issues.
34

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 35 of 137

offense of drug conspiracy for which the government asserted that Ruan was
accountable for the equivalent of 309,872 kilograms of marijuana. Ruan then
received a two-level enhancement under U.S.S.G. § 2S1.1(b)(2)(B) because he had
been convicted of violating 18 U.S.C. § 1956. He received another two-level
enhancement for abusing a position of public trust, pursuant to U.S.S.G. § 3B1.3.
Finally, Ruan received a two-level obstruction-of-justice enhancement for
testifying falsely at trial pursuant to U.S.S.G. § 3C1.1. The PSR calculated the
adjusted offense level as 44, but because the offense level exceeded the maximum
level used in the guidelines, which is 43, the PSR treated Ruan’s total offense level
as 43. Because Ruan had no criminal history, he was attributed a criminal history
category of I.
Based on an offense level of 43 and a criminal history category of I, the PSR
noted that the guideline imprisonment range was simply “life.” However, the
statutorily-authorized maximum sentences for each of the convictions were less
than the applicable range. Specifically, the PSR noted that the maximum term of
imprisonment was: (1) 20 years for each of Counts 1, 2, 4, 8, 9, 11, and 12; (2) 40
years for Count 3; (3) 10 years for each of Counts 15, 18, 19, 20, 21, and 22; and
(4) 5 years for each of Counts 16 and 17. Pursuant to U.S.S.G. § 5G1.2(b), the
probation officer converted the statutory maximum penalties to months and added
them together, arriving at a guideline range of 3,000 months. The probation officer
35

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 36 of 137

also determined that Ruan owed restitution totaling $17,261,859.14 to various
insurance companies that had paid for illegal prescriptions.
Ruan objected to the PSR and filed a sentencing memorandum, and the
government responded to his objections. Ruan first objected that the government’s
drug-quantity calculation grossly overestimated the number of relevant
prescriptions. The government responded that the district court needed only to
approximate the quantity of controlled substances that were within the scope of the
criminal activity that Ruan jointly undertook. The government explained that to
reach that total drug quantity, the government requested data of all controlled
substances that PPSA prescribed during the relevant period, and then reduced the
list to only morphine, oxycodone, methadone, hydromorphone, oxymorphone, and
fentanyl. The government then calculated the total number of grams prescribed of
each individual drug by first multiplying the number of units of the drug prescribed
by its strength and converting that result to grams. Then, the government
calculated the total amount of each drug and converted these totals to their
marijuana equivalents. In determining how many of those prescriptions were
illegal, the government acknowledged that not all prescriptions were illegal.
However, the government noted that there was testimony from several witnesses,
including nurse practitioners Palmer and Parker, who roughly estimated that 50%
of the patients were illegally prescribed controlled substances. However, the
36

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 37 of 137

government also stated that the ascribed offense level would still have been
appropriate even if only 10.6% of the prescriptions written by Ruan and Couch
were illegal. The government argued that sufficient evidence at trial was presented
for the court to find that at least 10.6% of the prescriptions were written outside the
usual course of professional practice, including: the manner in which Ruan and
Couch prescribed opioids was consistent across time and patients; Couch rarely
saw patients during follow up office visits; prescriptions were written in Couch’s
name by Palmer, which both doctors knew about; 5,793 prescriptions were written
in Couch’s name when he was out of the state or country; patients were seen and
prescribed opioids before Couch would arrive to work at PPSA; and Couch and
Ruan prescribed medication when they had a financial self-interest to do so.
Ruan disagreed, contending that the drug quantity should have been based
on what was proven at trial through expert or patient testimony, and he argued that
any reliance on Palmer’s or Parker’s statements as to 50% of the prescriptions
being unlawful would be improper because (1) there was no established basis for
their opinions, (2) they worked at a different location than Ruan, and (3) they
lacked the ability or expertise to reach their conclusions. Ruan also offered DEA
publications, which he stated showed that the average sentence for cases with
between 1 and 5 distribution counts was 83.4 months.

37

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 38 of 137

Ruan also adopted Couch’s arguments at sentencing, among them that other
circuits followed a more nuanced approach in calculating drug quantities attributed
to physicians because doctors’ prescriptions were presumed to be legal. He also
asserted that courts should exclude any prescriptions that merely breach the civil
malpractice standard because that standard did not establish criminality. He noted
that, despite the government having Palmer on the stand for several hours, the
reference to the 50% figure lasted mere seconds, and the government could have
elicited more details from Palmer, such as explaining whether the term
“overmedicated” referred to a breach of the civil standard of care or to
prescriptions outside the usual course of professional practice.
Ruan’s second objection to the PSR was to the restitution calculation. The
government explained that it calculated restitution by taking the total paid for
medications by insurers BCBS, United Healthcare, Medicare, and Tricare, and first
deducted the payments each made for non-controlled substances and Schedule IV
and V controlled substances. Then, the government deducted 15% of the total each
insurer paid for TIRF prescriptions, based on testimony that no more than 15% of
PPSA patients were cancer patients. The government finally deducted 50% from
the amounts each insurer paid for the remaining Schedule II prescriptions based on
the testimony that 50% of PPSA patients were overmedicated. Ruan responded,
with regard to the illegal TIRF prescription percentage of 85%, that off-label TIRF
38

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 39 of 137

prescriptions were not inherently illegal. He pointed out that insurance companies,
including BCBS, sometimes approved such prescriptions, and that Dr. Aultman
had agreed that prescribing off-label is not illegal. He also argued that the 50%
figure as to the remaining Schedule II drugs was speculative, and the government
should provide specific evidence as to why each prescription paid for by each
insurer was fraudulent.
Ruan’s third objection was to the obstruction-of-justice enhancement. In
response, the government stated that Ruan testified falsely when he stated that he
was unaware that Palmer was forging Couch’s prescriptions. In an email, Ruan
reminded Couch to talk to Palmer about not prescribing “red flag” drugs, and
testimony from other PPSA employees and patients established that nearly
everyone was aware that Palmer was prescribing controlled substances in Couch’s
name. The government pointed out that Ruan had a financial interest in that
activity because prescriptions forged by Palmer could be filled at C&R.
At sentencing, Ruan reiterated these arguments.8 He also argued that: (1) he
prescribed half the number of drugs that Couch did; (2) he exercised greater
oversight over his nurse practitioners than Couch had; (3) he had an excellent
national reputation; and (4) despite some mistakes, he practiced good medicine and

8
The district court ruled on the appellants’ common objections at Couch’s sentencing,
which was the day before Ruan’s. Ruan’s attorney participated in these portions of Couch’s
sentencing.
39

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 40 of 137

legitimately helped patients. The government responded that: (1) Ruan was the
leader of PPSA and that every aspect of the illegal activity was led and directed by
him; (2) he made a variety of decisions in his practice based on whether he would
make money off of them rather than whether it would benefit the patient being
treated; and (3) he had a variety of valuable assets that he attempted to hide.
The district court found that Ruan was the leader of the fraud offenses and
racketeering enterprise. The court noted that Ruan was the “better doctor”—insofar
as he had more board certifications and degrees—but it was his making the
business decisions that necessitated a higher sentence. The district court stated that
it recalled testimony that 50% of the prescriptions written were not for a legitimate
medical purpose and stated that using this testimony was a reasonable way for the
government to calculate the drug-quantity and restitution amounts. The court found
that the government had showed that at least 10.6% of the prescriptions were
written outside the usual course of professional practice, and it concluded that the
appropriate base offense level was 38. The district court also found that the
obstruction-of-justice enhancement was appropriate because it concluded that the
email from Ruan to Couch about Palmer was a clear indication that Ruan was
aware of Palmer forging prescriptions. The court sentenced Ruan to 252 months’
imprisonment, varying downward because Ruan did not have a criminal history
and because the court believed that the sentence reflected the seriousness of the
40

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 41 of 137

offense and the need for punishment, deterrence, and incapacitation. It also ordered
Ruan to make restitution as described in the PSR. Lastly, the district court finalized
a preliminary order of forfeiture as to Ruan.
II.

Discussion
A.

Sufficiency of the Evidence

Ruan challenges the sufficiency of the evidence on all counts against him.
Couch joins Ruan’s arguments as to their joint convictions—Counts 1-4, 15—17,
and 19.9
This Court “review[s] the sufficiency of the evidence de novo, viewing the
evidence and all reasonable inferences and credibility choices in favor of the
government and the jury’s verdict.” United States v. Ignasiak, 667 F.3d 1217, 1227
(11th Cir. 2012). “A conviction must be affirmed unless there is no reasonable
construction of the evidence from which the jury could have found the defendant
guilty beyond a reasonable doubt.” Id. As we explain below, we conclude that the
evidence presented at trial was sufficient to convict the appellants on all of the
counts that are challenged, except Count 16 charging both appellants with

9
Couch does not challenge on appeal the sufficiency of the evidence on Counts 5-7,
substantive drug distribution charges based on the prescriptions he wrote for Officer Kelley, or
on Counts 13 and 14, substantive drug distribution charges based on prescriptions he wrote for
his patients Kenneth Daves and Patrick Chausse.
41

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 42 of 137

conspiring to violate the Anti-Kickback statute based on their operation of PPSA’s
in-house workers’ compensation dispensary.
1.

Counts 8, 9,11, and 12: Substantive Drug Distribution
Against Ruan10

Counts 8, 9, 11, and 12 of the Superseding Indictment alleged that Ruan’s
prescribing of opioids to four specific patients violated 21 U.S.C. § 841(a)(1), and
18 U.S.C. § 2. In the medical context, drug distribution in violation of § 841(a)(1)
requires proof that either “1) the prescription was not for a ‘legitimate medical
purpose’ or 2) the prescription was not made in the ‘usual course of professional
practice.’” United States v. Joseph, 709 F.3d 1082, 1102 (11th Cir. 2013) (quoting
United States v. Tobin, 676 F.3d 1264, 1282 (11th Cir. 2012)). “The mens rea
required for a conviction under section 841(a)(1) is ‘knowledge, not willfulness.’”
Id. (quoting Tobin, 676 F.3d at 1279-80). Ruan was charged and convicted as both
a principal, 21 U.S.C. § 841(a)(1), and an aider and abettor, 18 U.S.C. § 2. To
sustain a conviction under 18 U.S.C. § 2, “the prosecution must show that ‘the
defendant associated [him] self with a criminal venture, participated in it as
something [ ]he wished to bring about, and sought by [his] actions to make it
succeed.’” Id. (quoting United States v. Pantoja-Soto, 739 F.2d 1520, 1525 (11th
Cir. 1984)).

10

We discuss the various counts of conviction slightly out of order for ease of analysis.
42

USCA11 Case: 17-12653

i.

Date Filed: 07/10/2020

Page: 43 of 137

Count 8: Prescriptions Ruan Wrote on February
26,2015 for Diane Greathouse

Count 8 charged that six prescriptions Ruan wrote for patient Diane
Greathouse (“Greathouse”) on February 26, 2015—two for 400 meg each of the
TIRF medications Abstral and Subsys, one for 40 mg of OxyContin (an extended
release oxycodone), and one for 10 mg of Norco—amounted to unlawful drug
distribution. Government expert witness Dr. Greenberg reviewed Greathouse’s file
and testified at trial that those prescriptions were not for any legitimate medical
purpose and that Ruan’s overall treatment of Greathouse, including prescribing
them, was outside the usual course of professional practice. In support, Dr.
Greenberg stated that Ruan prescribed Greathouse Abstral and Subsys, two TIRF
medications that are intended for cancer treatment, although she did not have
cancer. Additionally, in his opinion, Ruan’s choice to prescribe both Abstral and
Subsys, different formulations of the same drug, “makes no sense.” Dr. Greenberg
further explained that Ruan was already prescribing Greathouse such high doses of
opioids that she could be “in a stupor and ready to fall into a coma”, but then had
tried to counteract those effects, not by discontinuing the opioids but by improperly
prescribing Provigil, an amphetamine, to the mixture of drugs. He also noted that
Ruan had previously prescribed Greathouse a naloxone (brand name Narcan)
injector, which is used as an antidote for fentanyl overdoses, without her informed

43

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 44 of 137

consent and without ensuring that her family members, who would be the ones
using it in case of her overdose, had CPR or other relevant training.
Ruan’s principal argument in support of his claim that the evidence was
insufficient to convict him on Count 8—as well as on Counts 9, 11, and 12—is that
Dr. Greenberg’s testimony was unreliable. Ruan draws our attention to the fact that
on the Monday following Dr. Greenberg’s testimony at trial, which had concluded
the previous week, government counsel alerted the district court and defense
counsel, through a motion filed under seal, that Dr. Greenberg had notified them
over the weekend that he thought he had early-onset dementia and was consulting a
neurologist. During a hearing outside the presence of the jury, government counsel
expressed misgivings about some of Dr. Greenberg’s testimony, represented that
he had offered to refund monies and not charge for his trial testimony and that the
government intended to accept his offer, but indicated that the government wanted
to gather more information before deciding whether to ask for a specific jury
instruction on the issue.
Despite this troubling circumstance, Ruan cannot succeed on his
insufficiency of the evidence argument. Neither Ruan nor Couch asked the district
court to provide the jury with the government’s disclosure concerning Dr.
Greenberg’s mental health. Rather, at the in-chambers hearing, Couch’s attorney
noted that the standard for competency is “fairly liberal,” recounted that Dr.
44

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 45 of 137

Greenberg had been cross-examined, and mentioned that “we don’t think that
there’s anything there.” Ruan’s attorney said nothing. The district judge stated, “I
don’t think there’s any question that he was competent to testify,” suggested that
the issue merely related to Dr. Greenberg’s credibility, and decided to await more
information from the government, if any materialized. No further information was
presented by the end of trial.
Considering the foregoing, to the extent Ruan asserts that the jury should
have been made aware that Dr. Greenberg thought he may have a mental health
issue, our review of that claim is limited to plain error because Ruan never
preserved the issue. See Fed. R. Crim. P. 52(b) (“A plain error that affects
substantial rights may be considered even though it was not brought to the court’s
attention.”). And although Dr. Greenberg was the sole government expert witness
relating to the four substantive drug distribution counts charged against Ruan,
defense counsel rigorously cross-examined him, during which time, as discussed in
further detail below, he admitted to several errors and omissions in his testimony
and even changed his opinion on several points. Thus, the jury was aware that Dr.
Greenberg’s testimony was not infallible. We thus cannot say that, even if the
jurors had known of Dr. Greenberg’s disclosure to government counsel, they
“could not have found [Ruan] guilty under any reasonable construction of the

45

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 46 of 137

evidence.” Ignasiak, 667 F.3d at 1229 (quoting United States v. Merrill, 513 F.3d
1293, 1299 (11th Cir. 2008)).
Aside from Dr. Greenberg’s credibility, Ruan also argues that the evidence
was insufficient to convict him on Count 8 because the jury heard during Dr.
Greenberg’s cross-examination that (1) the medications Ruan prescribed
Greathouse alleviated her pain and enabled her to continue working, (2) the
Centers for Disease Control and Prevention recommend Narcan when a patient is
at risk for opioid overdose, and (3) the FDA authorizes the manufacture of larger
doses of Subsys and Abstral than what Ruan prescribed. We are not persuaded that
reasonable jurors could not have found guilt after hearing this evidence. Dr.
Greenberg testified that if Greathouse was able to work it would only be because
of the amphetamines Ruan prescribed her and prescribing those was “simply way
below the rational standard of care for dealing with people who are in a near
overdose state.” He further explained that subsequent studies had shown that
Narcan did not always work as intended when given by a family member instead
of a medical professional and would not help a patient, like Greathouse, who was
also taking other drugs with sedative effects, including benzodiazepines. The jury
was entitled to credit Dr. Greenberg’s testimony. Sufficient evidence supports
Ruan’s conviction on Count 8 for drug distribution.
li.

Count 9: Prescriptions Ruan Wrote on April 27, 2015
for Kim Lowe
46

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 47 of 137

Count 9 was based on three prescriptions Ruan wrote on April 27, 2015, to
patient Kim Lowe (“Lowe”) for 600 meg of Fentora, which is a fentanyl lozenge,
and 80 mg and 15 mg of the opioids OxyContin and oxycodone, respectively. Dr.
Greenberg reviewed Lowe’s file and testified at trial that those prescriptions were
not for any legitimate medical purpose and that Ruan’s overall treatment of Lowe
since January 2009 was outside the usual course of professional practice. Dr.
Greenberg specifically stated that Ruan acted outside the usual course of
professional practice when he: (1) failed to take down Lowe’s history of illnesses
and medications; (2) failed to refer her for mental health treatment despite her
general complaints of “severe pain over her entire body” lasting more than 20
years, which Dr. Greenberg opined was a “red flag” for a psychiatric problem
given that there are few diseases that can cause such symptoms; (3) failed to obtain
Lowe’s informed consent prior to prescribing her a combination of oxymorphone
(brand name Opana), OxyContin, Xanax, oxycodone (brand name Percocet),
Lunesta sleeping pills, and Soma; (4) prescribed Lowe, who did not have cancer,
the fentanyl lozenge, which Dr. Greenberg described as an “end-of-life drug that is
only approved by the FDA for people who are in the last stages of their lives with
cancer”; (5) failed to counsel her when she ran out of medications prematurely,
which suggested that she was either taking more than what was prescribed or
diverting medications; and (6) ignored positive urine screening test results for
47

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 48 of 137

hydrocodone and fentanyl at a time when Ruan was not prescribing her those
medications.
Ruan points out that on cross-examination, Dr. Greenberg was shown a part
of Lowe’s medical file dating back to 2008 that he had never seen before that
revealed that Ruan did in fact do an initial exam, record Lowe’s medical history,
and review information from her referring physician when he first saw her as a
patient. Dr. Greenberg was also shown where Lowe kept a pain diary and
communicated her perceived levels of pain to Ruan. Additionally, Lowe herself
testified for the defense, stating that Ruan did more than just prescribe opioids; his
treatment of her included a back brace, various nerve and facet blocks, injections,
epidurals, physical therapy, and ointments. Although Lowe believed that the
medications Ruan prescribed medically benefited her, she also had trouble
remembering that she had been a patient of Ruan’s since 2009, believing instead
that she had only seen him for the past three years. The jury was entitled to credit
Dr. Greenberg, a physician, over Lowe, and even if Lowe felt that she benefitted
from the medications Ruan prescribed, a reasonable jury could nonetheless
conclude that the manner in which Ruan prescribed them was outside the usual
course of professional practice. Sufficient evidence supports Ruan’s conviction on
Count 9 for drug distribution.
in.

Count 11: Prescription Ruan Wrote on November 25,
2014 for Deborah Walker
48

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 49 of 137

Count 11 addressed a prescription for the opioid Opana that Ruan wrote for
patient Deborah Walker (“Walker”) on November 25, 2014. Dr. Greenberg
testified that Walker came to Ruan 11 months earlier, in January 2014, seeking
pain medication shortly after completing a 19-month prison sentence. Dr.
Greenberg considered prison time a “giant red flag” for drug-seeking behavior but
noted that he did not see any indication that Ruan had asked Walker whether she
was incarcerated due to a drug-related crime. He also criticized Ruan’s failure to
refer Walker to a psychiatrist when it was noted in her file that she had bipolar
disorder with schizophrenic features. Dr. Greenberg also opined that Ruan should
have suspected diversion and counseled Walker on such matters when a urine test
performed during that January 2014 visit did not detect Soma and hydrocodone,
drugs that he thought Ruan had recently prescribed her. In Dr. Greenberg’s view, it
was improper for Ruan to have prescribed Opana because it is the “most sought[]after prescription drug by people who are heroin addicts or other I.V.-type abusers
of I.V. opioid drugs.” He also condemned Ruan’s addition of prescriptions for
Soma and hydrocodone at subsequent visits.
During a visit to Ruan in April 2014, Walker tested positive for several
drugs, including hydromorphone, that Ruan had not prescribed, which suggested to
Dr. Greenberg that Walker was receiving opioids from other doctors or off the
street. Dr. Greenberg testified that he did not believe that Ruan was checking the
49

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 50 of 137

PDMP, which would have revealed that Walker was indeed receiving pain
medications from 12 or 13 different doctors. Dr. Greenberg opined that the
prescription Ruan wrote for Walker for Opana in November 2014 was merely the
last in a long line of medically illegitimate prescriptions that were written by Ruan
outside the usual course of professional practice.
Dr. Greenberg was subject to extensive cross-examination related to his
review of Walker’s file. He admitted that he had missed that Walker had been a
patient of Ruan’s in 2011, before going to prison, and that Ruan had prescribed the
Soma and hydrocodone before her period of incarceration, which could have
explained why those drugs were not present in the drug screen in January 2014,
after she had been incarcerated for 19 months. Dr. Greenberg was also shown
portions of Walker’s physical file from 2008, before PPSA migrated to electronic
record-keeping, showing that she had been advised about the dangers of
developing a dependency on opioids and mixing opioids with alcohol. Dr.
Greenberg admitted that such warnings and informed consent were within the
scope of professional medical practice.
The jury also heard from Walker’s husband,11 who testified that his wife had
a drug addiction and served time for burglary and stealing to support her drug

1
By the time of trial, Walker had died. Prior to Walker’s husband’s testimony, the jury
was informed of her death and told that there were no allegations that Ruan or Couch was
responsible.
50

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 51 of 137

habit. He described how Ruan rapidly increased her opioid dosages beyond the
minimum necessary for pain control, stating that her prescribed medications would
put her in an “almost comatose” state, that the dosages were so great that she
would immediately fall asleep after taking the medications, and that she routinely
fell asleep while cooking and he would come home from work to find their home
filled with smoke. Given this testimony, we find that the totality of the evidence
was sufficient for the jury to determine that Ruan dispensed controlled substances
to Walker outside the usual course of professional practice as charged in Count 11.
IV.

Count 12: Prescription Ruan Wrote on October 10,
2012 for John Bosarge

Count 12 alleged that a prescription Ruan wrote for morphine sulfate (brand
name MS-Contin) on October 10, 2012, to patient John Bosarge (“Bosarge”) was
for no legitimate medical purpose and outside the usual course of professional
practice. Dr. Greenberg considered Bosarge, who was an opioid-dependent 50year-old, a “high risk” patient because he suffered from psychiatric and cardiac
problems as well as high blood pressure. Dr. Greenberg opined that Ruan’s
treatment of Bosarge was outside the usual course of professional practice because,
rather than prescribe the “absolute minimum” dose of opioids that would have
helped his pain yet addressed his opioid dependence, he combined the opioid
prescriptions with prescriptions for Xanax, a “sedative-hypnotic” drug, which
created a risk of an “accidental respiratory arrest,” and butorphanol, an “agonist51

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 52 of 137

antagonist” drug, which could cause, if a patient is not detoxed from opioids first,
the patient to go into a painful withdrawal. Dr. Greenberg emphasized that the
warning labels on those medications warned against prescribing them together.
Ruan argues that the charged prescription was merely a continuation of
Bosarge’s prior treatment with his referring physician, but the jury heard evidence
that morphine like Ruan prescribed Bosarge is a stronger opioid than the
hydrocodone he was previously taking before the referral to Ruan. The jury was
entitled to credit Dr. Greenberg’s opinion that Ruan’s treatment of Bosarge fell
outside the usual course of professional practice, and sufficient evidence supports
Count 12.
2.

Counts 2,3, and 4: Drug Distribution Conspiracies Against
Couch and Ruan

Counts 2, 3, and 4 charged the appellants with conspiracies to dispense
Schedule II drugs, fentanyl, and Schedule III drugs, respectively, in violation of 21
U.S.C. §§ 846 and 841(a)(1). “In order to secure a conviction for unlawful
dispensation under § 841(a)(1), the government must prove that the defendant
‘dispensed controlled substances for other than legitimate medical purposes in the
usual course of professional practice, and that he did so knowingly and
intentionally.’” United States v. Azmat, 805 F.3d 1018, 1035 (11th Cir. 2015)
(quoting Ignasiak, 667 F.3d at 1227). “To establish a conspiracy in violation of §
846,” the government must prove that: “(1) there was an agreement between two or
52

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 53 of 137

more people to commit a crime (in this case, unlawfully dispensing controlled
substances in violation of § 841(a)(1)); (2) the defendant knew about the
agreement; and (3) the defendant voluntarily joined the agreement.” Id. (footnote
omitted). “A conspiracy conviction will be upheld if ‘the circumstances
surrounding a person’s presence at the scene of conspiratorial activity are so
obvious that knowledge of its character can fairly be attributed to him.’” Id.
(quoting United States v. Figueroa, 720 F.2d 1239, 1246 (11th Cir. 1983)).
i.

Counts 2 and 4: Schedule II and III Drugs

The appellants argue that the prescriptions they wrote for these drugs were
legitimate, but the evidence at trial indicated significant activities by Ruan and
Couch that were outside the course of professional practice. They altered their
prescribing habits where they had a financial interest, like when they increased
their Abstral prescriptions after purchasing stock in the company, decreased their
Abstral prescriptions after a drop in stock price and a change in voucher rules, and
increased them again after C&R entered a rebate agreement with Galena. Insys
maintained Ruan and Couch as weekly speakers in order to influence their
prescription habits. Palmer was forging prescriptions with Couch’s signature, and
he did this for his patients and for those of other PPSA nurses, something that
Ruan was aware of and acquiesced to. Couch and Ruan would leave blank
prescription pads, which sometimes only had the doctors’ signatures on them, for
53

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 54 of 137

use by the nurses when the doctors were out of the office. Additionally, the patient
files examined for trial by the government’s experts suggested that there were
serious gaps in patients’ quality of care, including taking insufficient steps to
safeguard high-risk patients, ignoring signs of potential drug diversion, and failing
to get adequately informed consent before prescribing drugs, including for offlabel use. The jury was free to disbelieve Ruan and Couch and reasonably could
infer that the appellants were participating in a conspiracy to unlawfully distribute
controlled substances.
li.

Count 3: Fentanyl

Count 3 charged a conspiracy to distribute fentanyl, also a Schedule II
drug.12 The jury was asked to find whether the conspiracy involved more than 40
grams, a quantity triggering a 5-year mandatory minimum sentence under 21
U.S.C. § 841(b)(l)(B)(vi). The only argument the appellants raise regarding this
count is that there was insufficient evidence to support the jury’s finding that they
prescribed over 40 grams of fentanyl in a manner outside the usual course of
professional practice or for no legitimate medical purpose.
The government’s chart listing the appellants’ top 28 patients receiving the
most Subsys or Abstral prescriptions without a cancer diagnosis showed that the

12

The Schedule III conspiracy involved hydrocodone, which was reclassified to Schedule II
in 2014.
54

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 55 of 137

appellants prescribed a total of 67.311 grams of fentanyl to those patients off-label.
The appellants claim that the jury could not consider the full 67.311-gram amount
because the government only presented testimony specifically addressing 10 of
those patients, who were prescribed a total of 33 grams. More specifically,
government expert Dr. Greenberg testified about five patients who were prescribed
a total of 14.958 grams, the fentanyl prescribed to the patients who testified was
16.621 grams, and the fentanyl prescribed to patients whose relatives testified was
1.487 grams. However, government experts Dr. Aultman and Dr. Vohra testified
about an additional five patients who were prescribed fentanyl not included in the
chart and testified that the appellants’ treatment of them was outside the usual
course of professional practice. The government points to PDMP data showing that
these five patients received 8.83 grams of fentanyl, which, combined with the 33
grams, surpasses the 40-gram threshold.
While the jury was shown PDMP data throughout the trial, we do not think
that they were sufficiently presented with the specific data showing that these five
patients received 8.83 grams of fentanyl. But even if the jury erred in finding that
over 40 grams was prescribed, the error was harmless because the 5-year
mandatory minimum sentence was well below the sentences the appellants
received. We find no error with the jury’s guilty verdict with regard to Count 3.
3.

Count 15: Health Care Fraud Conspiracy Against
Couch and Ruan
55

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 56 of 137

Count 15 alleged that the appellants engaged in a conspiracy to fraudulently
obtain money from a health care benefits program in violation of 18 U.S.C. §
1347(a). A health care fraud conspiracy exists when defendants agree to submit
false claims to health care benefit programs. United States v. Gonzalez, 834 F.3d
1206, 1214 (11th Cir. 2016). The defendants must have known that the claims
submitted were actually false. Id. “A person makes a false claim if the treatments
that were billed were ‘not medically necessary[ ] or were not delivered to the
patients.’” Id. (quoting United States v. Medina, 485 F.3d 1291, 1304 (11th Cir.
2007)). To sustain a conviction, the government “had to establish beyond a
reasonable doubt that: (1) a conspiracy existed to commit health care fraud under
18 U.S.C. § 1347; (2) [the appellants] knew of the conspiracy; and (3) [the
appellants] knowingly and voluntarily joined it.” Id.
The Superseding Indictment alleged and the government sought to prove at
trial that the appellants agreed to commit health care fraud in four ways: (1) falsely
certifying to insurers that some patients had cancer so that the insurers would pay
for their TIRF prescriptions; (2) billing BCBS for office visits conducted by nurse
practitioners using Couch’s physician identification number; (3) billing insurers for
drug tests that were medically unnecessary; and (4) billing insurers for PPSA
office visits at which patients were prescribed medically unnecessary drugs. If
sufficient evidence supports any one of these methods, we must uphold the health
56

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 57 of 137

care fraud conspiracy conviction. See United States v. Ross, 131 F.3d 970, 984
(11th Cir. 1997).
First, the evidence was sufficient to convict the appellants of conspiring to
defraud a health care benefits program by falsely certifying to insurers that some
patients had cancer so that insurers would pay for their TIRF prescriptions. See
Gonzalez, 834 F.3d at 1215-16 (submitting a false claim to an insurer encompasses
lying about a patient’s condition to the insurer). DEA Special Agent Michael Burt
testified that Ruan signed a letter to Cigna confirming that his patient Kathleen
Burns’s prescription for Subsys had been “for breakthrough cancer pain,” when
she did not have cancer.13 Similarly, Perhacs, the former pharmaceutical sales
representative for Insys, testified that Couch signed a form sent to Insys to get
insurance approval for Abstral,14 listing patient Ronald Ivy’s diagnosis as bladder
cancer, yet his medical file had no mention of any cancer. Several witnesses,
including DEA Diversion Investigator Michelle Penfold and Couch’s nurse
practitioner Palmer, discussed how a Subsys prescription for Joyce Barber listed a
diagnosis of “[u]terine cancer.” Barber herself testified that when her insurance
company later called her to verify that she had cancer and she told them truthfully

13

Dwight Bums, Kathleen Bums’s husband, confirmed Burt’s testimony. By the time of
trial, Kathleen Bums had died. Prior to her husband’s testimony, the jury was informed of her
death and told that there were no allegations that Ruan or Couch was responsible.
14

Insys had a unit in its home office, called the “Internal Reimbursement Center,” to assist
physicians in obtaining insurance approval for Insys.
57

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 58 of 137

that she did not, they stopped covering Subsys. And Dr. Aultman, when testifying
regarding her review of several patient files, noted that a prescription Couch wrote
for Brenda Ward had “cervical cancer” written on it even though her medical
record contained no verification of that diagnosis.
We also find that the evidence was sufficient to convict the appellants for
conspiring to defraud BCBS. Cindy McKenzie, a BCBS employee who oversees
and manages fraud activities, testified that the appellants routinely billed for office
visits conducted entirely by nurse practitioners, like Palmer, under Couch’s
identification number. This practice is called incident to billing, and while some
insurers allow it,15 BCBS did not. Rather, BCBS paid about 30% less for nurse
practitioner visits than for doctor visits, and it expressly required a physician
working with a nurse practitioner to also “see[] and renderf] services to the patient”
to bill BCBS under the doctor’s name. In October 2014, BCBS clarified its policy,
effective January 1, 2015, to permit only the “provider who is physically
conducting or affirming the [patient’s history] and performing an in-person
examination” to submit a bill. BCBS notified providers of this change, and Ken
Cross, PPSA’s practice manager, testified that he told the appellants that they at
least needed to see their patients every visit. Yet Palmer saw dozens of BCBS

15
Medicare, TriCare, and others allowed “incident to billing,” allowing submission of bills
under a doctor’s provider number if the doctor was involved in the treatment, through
participation or oversight.
58

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 59 of 137

patients every day without Couch. BCBS found no records of PPSA visits billed
under Palmer’s name, only those billed under Ruan’s and Couch’s. McKenzie
testified that “[tjhat’s a false claim.”
Although Ruan testified that he personally saw all of his patients, he
acquiesced in Couch’s practice of permitting Palmer and others to see patients
independently. This is evidenced by the July 2014 email in which Ruan asked
Couch to “talk to Justin [Palmer] on cutting down” the amount of Roxicodone 30
mg he prescribed in light of news reports that Alabama had the most opioid
prescriptions in the country. Couch responded that “[w]e,” meaning he and Palmer,
would not “write triple digit dispentions [sic]of short acting opioids.”
We also find that the evidence was sufficient to convict the appellants for
conspiring to defraud a health care benefits program by billing for expensive off­
site urine screen tests that were medically unnecessary. Ruan ordered them for
every patient because they generated more revenue than in-house tests. And the
jury heard from several sources that the appellants rarely discussed inconsistent
test results with patients, whether to counsel them into compliance or fire them as
patients. Ruan himself had stated that “[i]n private practice the more you fire, the
more revenue you lose.” Instead, he opined, “when one patient tests positive for
street drugs, that gives you more reason to do more frequent urine drug screens,
which pays three times more than an office visit.”
59

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 60 of 137

Finally, because we have already found that the evidence is sufficient to
convict the appellants of illegally prescribing drugs, like Abstral and Subsys,
outside the course of professional practice, we find that their billing insurers for
PPSA office visits at which patients were prescribed these drugs that C&R then
dispensed, is an alternative object of the health care fraud conspiracy. Indeed, for
Abstral and Subsys, the appellants were either the top or among the top billers of
BCBS, Medicare, Tricare, and United Healthcare. While not all of these
prescriptions were illegal, some were. In sum, the evidence was sufficient to
convict Ruan and Couch for health care fraud conspiracy.
4.

Counts 16 and 17: Conspiracies to Receive Kickbacks
Against Couch and Ruan

Counts 16 and 17 charged the appellants with conspiring, in violation of 18
U.S.C. § 371,16 to violate the Anti-Kickback statute in two different ways. The
statute provides in part that:
Whoever knowingly and willfully solicits or receives any remuneration
(including any kickback, bribe, or rebate) directly or indirectly, overtly
or covertly, in cash or in kind ... in return for referring an individual
16

That statute provides:
If “two or more persons conspire either to commit any offense against the United
States, or to defraud the United States, or any agency thereof in any manner or for
any purpose, and one or more of such persons do any act to effect the object of the
conspiracy, each shall be fined under this title or imprisoned not more than five
years, or both.”

18 U.S.C. §371.
60

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 61 of 137

to a person for the furnishing or arranging for the furnishing of any item
or service for which payment may be made in whole or in part under a
Federal health care program . . . shall be guilty of a felony and upon
conviction thereof, shall be fined not more than $100,000 or imprisoned
for not more than 10 years, or both.
42U.S.C. § 1320a-7b(b)(l).
Count 16: PPSA’s Workers’ Compensation
Dispensary
Count 16 charged the appellants with violating the Anti-Kickback statute by
conspiring together and with Michael Drobot and Manfuso to accept kickbacks in
exchange for letting IPM and CRM run their in-office workers’ compensation
dispensary. The appellants argue that their convictions on Count 16 must be
vacated because there was no “Federal health care program” associated with
PPSA’s workers’ compensation dispensary. As we explain below, we agree.
As noted, to prove a violation of the Anti-Kickback statute, the government
needed to prove that the appellants (1) knowingly and willfully (2) received
remuneration (3) in return for referring individuals to a person for the furnishing of
medication (4) paid for by a “Federal health care program.” See 42 U.S.C. §
1320a-7b(b)(l). The statute defines a “Federal health care program”—Medicaid
and Medicare are common examples—as “any plan or program that provides
health benefits, whether directly, through insurance, or otherwise, which is funded
directly in whole or in part, by the United States Government.'1'1 42 U.S.C. § 1320a7b(f) (emphasis added). Because the 42 U.S.C. § 1320a-7b(b) offense was alleged
61

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 62 of 137

as an 18 U.S.C. § 371 conspiracy, federal jurisdiction was premised on the
existence of a “Federal health care program,” in addition to that also being an
element of the substantive crime. In short, the government had to show that federal
funds passed through PPSA’s workers’ compensation dispensary.
In determining whether federal jurisdiction exists, the court examines
the sufficiency of the evidence offered by the government. United States v. Key, 76
F.3d 350, 353 (11th Cir. 1996) (“Whether the government proved the jurisdictional
element is measured as a challenge to the sufficiency of the evidence.”). “All
evidence and inferences therefrom are viewed in the light most favorable to the
verdict.” Id. The relevant inquiry in making this determination is whether a
reasonable jury could have found the jurisdictional element to have been satisfied
beyond a reasonable doubt. Id.
In United States v. Dennis, 237 F.3d 1295 (11th Cir. 2001), this Court
examined at length the amount of evidence sufficient to prove federally-insured
status in a bank-fraud prosecution. In that case, a government agent testified that
the two banks involved were federally insured. Id. at 1304. However, this Court
found the testimony “equivocal,” and although the jurisdictional nexus was
established for one of the banks through an official bank document containing the
phrase “MEMBER FDIC,” there was no such evidence relating to the other bank.

62

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 63 of 137

Id. Regarding the second bank, this Court found the agent’s testimony alone
insufficient to establish the element:
The agent’s conclusion that the bank was federally insured appears to
be premised upon his belief that because a bank is a ‘national bank,’ it
is necessarily a ‘federally insured bank.’ This reasoning lacks legal
support. A ‘national bank’ is not necessarily ‘federally insured.’ As
demonstrated by pertinent statutory provisions, the two concepts are
distinct and not synonymous.
Id. at 1305. This Court held that the evidence was insufficient to prove beyond a
reasonable doubt that the bank in question was federally insured and vacated the
conviction for bank fraud. Id.
The evidence here is similarly equivocal. The government relied on two
items to satisfy the requirement that the kickbacks must have been paid in
exchange for referring individuals for services paid for by federal funds. First, the
government relied on exhibits showing that the U.S. Department of Labor paid for
office visits for several workers’ compensation patients. But the exhibits showed
that the U.S. Department of Labor paid for physician services, not prescriptions.
Second, the government put on evidence that, while most of PPSA’s
workers’ compensation patients were covered by state-funded insurance, at least
some patients who received medications from PPSA’s workers’ compensation
dispensary were longshoremen who were covered by an insurance provider by the
name of “FARA.” FBI Special Agent Amy White read into evidence a July 2012
email from Manfuso, in which he told Ruan:
63

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 64 of 137

FARA is a federal longshoreman insurance program that has requested
that you no longer dispense to their patients. Since they are a federal
program, and not an Alabama workers’ comp state program, the laws
and regulations that apply to their patients are different. . . . Alabama
workers’ comp law supports that the patient has the right to choose
where to get their medications. Alabama work comp insurance
companies cannot legally tell you not to dispense to their patients.
Federal law unfortunately does not state that the patient has the right to
choose where to get their medication. The insurance company that
covers an injured federal worker—in this case that’s FARA—has the
ability to direct the patient to a certain pharmacy service to get their
medication. In other words, FARA is allowed to tell you that they don’t
want you to dispense to their patients and they would like you to send
their patients to an outside pharmacy.
There were other subsequent emails from Manfuso to Ruan where Manfuso
repeatedly instructed Ruan to “immediately stop dispensing to FARA patients”
because FARA was refusing to cover their medications. The government claimed
that FARA was a “Federal health care program.” However, none of the documents
offered by the government at trial contained any indication that federal monies
actually passed through the dispensary. The appellants argue that FARA is merely
an insurance program administrator that covered several patients at the dispensary.
The only evidence at trial relating to FARA are the emails from Manfuso to Ruan,
which do nothing more than note that FARA is an insurance company. Moreover,
FARA is not named in 42 U.S.C. § 14402(d), the statute listing Federal health care
funding programs, like Medicare and Medicaid. We find that this evidence was
insufficient to establish beyond a reasonable doubt that FARA paid for
prescriptions with federal funds or that federal monies otherwise passed through
64

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 65 of 137

PPSA’s workers’ compensation dispensary. Because this element of the offense
was not proven, the appellants’ convictions for conspiracy to violate the AntiKickback statute charged in Count 16 cannot stand. Accordingly, we reverse and
vacate the appellants’ convictions on Count 16, and we vacate their sentences as to
this count.
u.

Count 17: Insys’s Speaker Program

Count 17 alleged that the appellants conspired with each other, Perhacs, and
others to violate the Anti-Kickback statute through their participation in Insys’s
speaker program. The evidence clearly showed that Insys was using its program as
a cover to funnel money to its top prescribers—Couch and Ruan. In the words of
Perhacs, Insys selected the appellants to speak because they were “whale[s]”—“in
[Insys’s] top 10 list”—and that the entire point of the speakers’ program was “[t]o
influence [the appellants] to keep prescribing a lot of Subsys.” People outside of
PPSA office staff rarely attended these dinners, and the ones who did were
sometimes “the same prescriber, time and time again.” In contrast, a representative
for Galena, the pharmaceutical company manufacturing Subys’s competitor,
Abstral, testified that when Ruan requested to be a speaker for Abstral, Galena
declined because “he was treating all of the patients in the area, it didn’t make
sense for him to be a speaker because there would be nobody to speak to.”

65

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 66 of 137

The appellants contend that the government failed to prove that they acted
willfully to violate the Anti-Kickback statute. “Willfully” means that the act was
committed voluntarily and purposely, with the intent to do something the law
forbids. See United States v. Starks, 157 F.3d 833, 837-38 (11th Cir. 1998). Ruan
points to testimony by Perhacs that Insys selected him as a speaker because he was
a respected pain management physician. He also argues that Perhacs testified
against him in hopes of receiving a sentence reduction. But there was sufficient
evidence for the jury to believe that the speaking program was a sham, and Insys
only reduced them after the appellants had been prescribing more and more of the
competitor product, Abstral, for months. Additionally, Ruan showed consciousness
of guilt when he began to direct Insys to dispose of the money by donating his
speaking fees to various universities. Sufficient evidence supports the conviction
on Count 17.
5.

Count 19: Mail or Wire Fraud Conspiracy Against
Couch and Ruan

Count 19 charged the appellants with conspiring with Perhacs, Palmer, and
Parker to commit mail or wire fraud in violation of 18 U.S.C. § 1349. To prove
such a conspiracy, “the government need not demonstrate an agreement
specifically to use the interstate wires to further the scheme to defraud.” United
States v. Hasson, 333 F.3d 1264, 1270 (11th Cir. 2003). Instead, “it is enough to
prove that the defendant knowingly and voluntarily agreed to participate in a
66

USCA11 Case: 17-12653

Date Filed: 07/10/2020.

Page: 67 of 137

scheme to defraud and that the use of the interstate wires in furtherance of the
scheme was reasonably foreseeable.” Id. “A scheme to defraud requires proof of
material misrepresentations, or the omission or concealment of material facts . . .
Id. at 1270-71.
The Superseding Indictment charged, and the government sought to prove at
trial, that the appellants conspired to make three types of misrepresentations to
insurers. The first misrepresentation was that they routinely billed BCBS for more
expensive doctor visits when only a nurse practitioner saw the patient. As
discussed in the previous section devoted to Count 15, the evidence was sufficient
to convict the appellants of health care fraud conspiracy for these actions. And
since the government established that PPSA submitted these bills electronically,
the use of the mails or wires element is met. The second misrepresentation, also
discussed in the section regarding Count 15 above, was that they lied to insurers
about patients being diagnosed with cancer to induce those companies to pay for
TIRF prescriptions. The jury saw that PPSA and the insurers sent forms and letters
related to coverage via fax and mail. The third misrepresentation was that Ruan
selected the most lucrative controlled substances to stock at PPSA’s workers’
compensation dispensary, and then he and Couch prescribed those drugs, making
their medical decisions based on profit, not the needs of patients. As discussed in
the section devoted to Count 16 above, Manfuso testified that while he and Ruan
67

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 68 of 137

frequently discussed the profit margin of various drugs for the formulary, Ruan
never talked with him about the drugs’ clinical aspects. Because the evidence
showed that these discussions occurred over email between Ruan in Alabama and
Manfuso in Maryland, the element of the use of interstate mail in furtherance of the
scheme was satisfied.
6.

Count 1: RICO Conspiracy Against Couch and Ruan

Count 1 charged the appellants with conspiring to violate RICO based on
predicate acts of drug distribution and mail or wire fraud. To establish a conspiracy
to violate RICO under 18 U.S.C. § 1962(d), “the government must prove that the
defendants ‘objectively manifested, through words or actions, an agreement to
participate in the conduct of the affairs of the enterprise through the commission of
two or more predicate crimes.”’ United States v. Starrett, 55 F.3d 1525, 1543 (11th
Cir. 1995) (quoting United States v. Russo, 796 F.2d 1443, 1455 (11th Cir. 1986)).
“A RICO conspiracy differs from an ordinary conspiracy in two respects: it need
not embrace an overt act, and it is broader and may encompass a great variety of
conduct.” Id. (quoting United States v. Pepe, 141 F.2d 632, 659 (11th Cir. 1984)).
The appellants first contend that the jury could not have reasonably found
that PPSA was a RICO “enterprise” because they operated it as separate medical
practices at two different locations. We disagree. Ken Cross, the appellants’ former
practice manager, testified that PPSA, as well as C&R, were legal entities jointly
68

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 69 of 137

owned by the appellants. The RICO definition of an “enterprise” is broad,
including “any individual, partnership, corporation, association, or other legal
entity, and any union or group of individuals associated in fact although not a legal
entity.” 18 U.S.C. § 1961(4). While Ruan and Couch generally saw their own
patients and divided their income proportionate to revenues generated from
patients that each treated, they also made financial and business decisions together,
such as buying Galena stock with PPSA funds. Ruan also negotiated with IPM and
CRM on behalf of himself and Couch to manage the PPSA workers’ compensation
dispensary. They discussed practice-management issues, such as Palmer’s
prescribing habits, via email, shared in the profits of C&R, and even worked at
each other’s primary location once a week. The jury had abundant evidence to
conclude that the appellants were members of an “enterprise” as RICO defines the
term because not only were PPSA and C&R jointly owned but Ruan and Couch
were also associated in fact.
There was also sufficient evidence presented to establish the commission of
two or more predicate crimes. As detailed in the previous sections, the jury
reasonably concluded that the appellants committed least two of the 13 drug
distribution and mail or wire fraud counts charged. We thus conclude that the jury
reasonably determined that RICO’s predicate acts requirement was satisfied.
7.

Counts 20,21, and 22: Money Laundering Conspiracy
and Substantive Money Laundering Against Ruan
69

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 70 of 137

Count 20 charged Ruan with conspiring with Manfuso and others to commit
money laundering in violation of 18 U.S.C. § 1956(h). “That section makes it a
crime to conspire to commit money laundering in violation of 18 U.S.C. § 1956 or
§ 1957.” United States v. Moran, 778 F.3d 942, 962 (11th Cir. 2015). “Under §
1956(h), ‘only two elements of conspiracy need be proven: (1) an agreement
between two or more persons to commit a money-laundering offense; and (2)
knowing and voluntary participation in that agreement by the defendant.’” Id.
(quoting United States v. Broughton, 689 F.3d 1260, 1280 (11th Cir. 2012)). Here,
the government alleged that the object of the 18 U.S.C. § 1956(h) conspiracy
charged in Count 20 was 18 U.S.C. § 1957 money laundering. That section
prohibits “knowingly engaging] or attempting] to engage in a monetary
transaction in criminally derived property of a value greater than $10,000 and is
derived from specified unlawful activity.” 18 U.S.C. § 1957(a). Additionally,
Counts 21 and 22 charged Ruan with substantive money laundering in violation of
18 U.S.C. § 1957(a). For these counts, the “monetary transaction[s] in criminally
derived property” were alleged to be Ruan’s purchase of two expensive
automobiles. The “specified unlawful activity” underlying all three counts was
alleged to be health care fraud conspiracy in violation of 18 U.S.C. § 1347(a),
conspiracy to violate the Anti-Kickback statute in violation of 18 U.S.C. § 371, and
conspiracy to distribute controlled substances in violation of 21 U.S.C. § 846.
70

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 71 of 137

In support of these counts, evidence was submitted that Ruan had 23
different bank accounts, some under his own name and others in the names of
various companies he controlled, such as XLR Exotic Autos, LLC. Ruan received
millions in profits from PPSA and C&R as well as speaker payments from Insys.
Some of this money made its way into XLR Exotic Autos’ bank account. In
August and September 2014, Ruan used Erin Bauer, his personal assistant, to
arrange two car purchases for him. Ruan wired $124,355.87 from XLR Exotic
Autos’ bank account to an auto dealer in Dallas to purchase a 2011 Audi R8
Spyder. The following month, he wired $110,000 to a different dealer in San Diego
as partial payment for a 1994 Lamborghini Diablo.
Ruan asserts that there was insufficient evidence to convict him of
conspiring to commit money laundering because PPSA and C&R had legitimate
income and the purpose of purchasing the vehicles was not to funnel money back
into a criminal venture. He relies largely on United States v. Miles, 360 F.3d 472
(5th Cir. 2004), but that case is distinguishable because it involved money
laundering promotion under 18 U.S.C. § 1956(a)(l)(A)(i), which criminalizes
financial transactions involving funds that are derived from specified illegal
activity, where the “transactions are intentionally aimed at promoting specified
unlawful activity.” Id. at 476. Here, the object of the money laundering conspiracy
was 18 U.S.C. § 1957(a), which the Fifth Circuit in Miles recognized is different: it
71

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 72 of 137

allows prosecutions for the “mere expenditure of unlawfully obtained funds” as
long as the expenditure is more than $10,000. Id. at 477-78 (citing United States v.
Brown, 186 F.3d 661, 670-71 (5th Cir. 1999) (explaining that in § 1957(a),
“Congress established a $10,000 per transaction threshold for convictions for
simply spending dirty money”)). This Court has similarly noted that because there
is no need to establish the intent to conceal or promote, and in light of the $10,000
threshold, 18 U.S.C. § 1957 “prohibits a wider range of activity than money
‘laundering,’ as traditionally understood.” Moran, 778 F.3d at 963 (quoting United
States v. Wetherald, 636 F.3d 1315, 1325 n.2 (11th Cir. 2011)).
Thus, all that was required of the government as to Counts 21 and 22 was to
prove two elements: (1) Ruan knowingly engaged in a financial transaction greater
than $10,000 and (2) at least $10,000 of that money came from a “specified
unlawful activity.” Ruan argues that there was insufficient evidence that he used
funds from specified unlawful activity to purchase the cars. But to the extent that
Ruan is guilty of conspiracy to commit health care fraud, conspiracy to receive
kickbacks, and distribution of controlled substances, his challenge to his money
laundering convictions also fails. As detailed above, Ruan made millions from
health care fraud and distribution of controlled substances. The government traced
those proceeds to the XLR Exotic Autos bank account used to purchase the cars.
No more was required.
72

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 73 of 137

Having concluded that the evidence was sufficient to convict the appellants
on all of the counts challenged, except Count 16, we now turn to the appellants’
challenges to various evidentiary rulings at trial.
B.

Evidentiary Challenges
1.

Admission of PDMP Data

The appellants challenge the government’s use of prescribing data pulled
from Alabama’s PDMP and similar databases from Florida and Mississippi. The
PDMP is a database of all controlled substance prescriptions dispensed—dispensed
meaning that the patient actually receives the medication—in Alabama. The
Alabama Department of Public Health (“ADPH”) maintains the PDMP database,
and the government called state pharmacy director Nancy Bishop, who oversees
the PDMP, to explain the system and offer the records.
Alabama law established the PDMP to “materially assist state regulators and
practitioners authorized to prescribe and dispense controlled substances in the
prevention of diversion, abuse, and misuse of controlled substances prescription
medication.” Ala. Code § 20-2-210; see also Miss. Code Ann. § 73-21-127; Fla.
Stat. § 893.055(2)(a). Each doctor or pharmacist who dispenses controlled
substances is required by law to report the following information to the PDMP
database: the patient’s name, the prescriber’s name, the medication prescribed, the
dosage amount, the quantity of medication dispensed, the date the provider wrote
73

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 74 of 137

the prescription, and the date the pharmacy filled the prescription. Ala. Code § 202-213(d). Similarly, federal law requires pharmacies to keep copies of filled
controlled substances prescriptions for at least two years. 21 C.F.R. § 1304.04(a),
(h)(2), (h)(4); see 21 U.S.C. § 828.
Access to the PDMP database is limited. Ala. Code § 20-2-214. Pharmacists
and doctors can see information on their own dispensing and prescribing as well as
their patients’ information; state and local law enforcement may access the
database for investigation; and federal law enforcement may do so on a showing of
probable cause. Additionally, data may be shared with other states’ monitoring
programs.
Bishop explained that pharmacists enter the prescription information into the
database either directly or via software that automatically transmits it to the PDMP
as they dispense the medication. The ADPH includes a disclaimer on each page of
the printed PDMP report stating that it “does not warrant the above information to
be accurate or complete” because the report is “based on the search criteria and the
data provided by the dispensing entities.” Addressing this disclaimer, Bishop
agreed that she could not guarantee that each pharmacist input the data correctly.
But she testified that doctors and pharmacists throughout the state access the
database on a daily basis. The appellants themselves accessed it in their practice.

74

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 75 of 137

Bishop described the PDMP as a “tool for the prescribers and the dispensers to use
to make the best clinical decision for their patient.”
Bishop queried the database for all controlled substance prescriptions written
by the appellants from January 2011 through May 2015 and for the top prescribers
of Abstral and Subsys in the state. The PDMP data was also used to create the
summary exhibits showing the number of the appellants’ patients receiving certain
other drugs, the percentage of prescriptions by drug schedule, the number of
prescriptions written on dates the appellants were out of the office, and their
prescribing of various drugs over time.
At trial, the appellants objected to the admission of the PDMP data on the
grounds that it contained multiple levels of hearsay and violated their
Confrontation Clause rights because it was based on testimonial evidence. The
district court overruled those objections. The appellants reassert those arguments
on appeal.
i.

Hearsay

We address the appellants’ hearsay objections first. This Court reviews
evidentiary rulings for abuse of discretion. See United States v. Todd, 108 F.3d
1329, 1331 (11th Cir. 1997). Hearsay is an out of court statement offered for its
truth. Fed. R. Evid. 801(c). Hearsay is inadmissible unless it falls within an
enumerated exception. Fed. R. Evid. 802. When evidence contains multiple levels
75

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 76 of 137

of hearsay, each statement must meet a hearsay exception to be admissible. Fed. R.
Evid. 805.
The appellants argue that the PDMP reports contain three types of out of
court “statements” that were offered for their truth: (1) the prescriptions written by
doctors for controlled substances, which are transmitted to pharmacies; (2) the
information about the prescriptions that the dispensing pharmacists put into the
PDMP database; and (3) the reports that PDMP users can create from the data.
However, the prescriptions that were written by Ruan and Couch—or in some
cases Palmer, a co-conspirator—are not hearsay because they constitute an
opposing party’s statement. See Fed. R. Evid. 801(d)(2)(D) & (E). Additionally,
the PDMP reports themselves are not hearsay because they are a “data
compilation” pursuant to Federal Rule of Evidence 803(6). See United States v.
Glasser, 773 F.2d 1553, 1558-59 (11th Cir. 1985) (computer printouts containing
compilations of various mortgage account transactions which were the basis of the
prosecution are admissible under the business records exception); United States v.
Fujii, 301 F.3d 535, 539 (7th Cir. 2002) (“Computer data compiled and presented
in computer printouts prepared specifically for trial is admissible under Rule
803(6), even though the printouts themselves are not kept in the ordinary course of
business.”); United States v. Arias-Izquierdo, 449 F.3d 1168, 1184 (11th Cir. 2006)

76

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 77 of 137

(citing Fujii for the proposition that a mere printout of “electronically stored
information” is not an additional statement for hearsay purposes).17
That leaves the pharmacists’ statements that they filled the prescriptions
written by the doctors. We agree with the district court that these statements are the
business records of the reporting pharmacies and are thus admissible under the
business records exception to the hearsay rule. See Fed. R. Evid. 803(6). The
business records exception provides, in pertinent part:
A record of an act, event, condition, opinion, or diagnosis [is
admissible] if:
(A) the record was made at or near the time by—or from information
transmitted by—someone with knowledge;
(B) the record was kept in the course of a regularly conducted activity
of a business, organization, occupation, or calling, whether or not for
profit;
(C) making the record was a regular practice of that activity;
(D) all these conditions are shown by the testimony of the custodian or
another qualified witness, or by a certification that complies with Rule
902(11) or (12) or with a statute permitting certification; and
(E) the opponent does not show that the source of information or the
method or circumstances of preparation indicate a lack of
trustworthiness.
17

Rule 803(6), as amended effective December 1, 2011, no longer lists a “data
compilation” as an example of a business record. See Fed. R. Evid. 803(6). The December 1,
2011, amendments to the Federal Rules of Evidence were stylistic changes to simplify the rule
language, with “no intent to change any result in any ruling on evidence admissibility.” Fed. R.
Evid. 803 advisory committee’s notes 2011 Amendments. Thus, case law construing former Rule
803(6) remains viable and is applicable here. And, Rule 101(b)(4) defines “record” as including
a “data compilation.” Fed. R. Evid. 101(b)(4).
77

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 78 of 137

Fed. R. Evid. 803(6). This Court has recognized that “[t]he touchstone of
admissibility under the business records exception to the hearsay rule is reliability,
and a trial judge has broad discretion to determine the admissibility of such
evidence.” United States v. Bueno-Sierra, 99 F.3d 375, 378 (11th Cir. 1996) (per
curiam).
The appellants argue that the requirement found in subsection (D) of the
business records exception is not met because the custodian of the records
Bishop, an ADPF1 employee—did not actually enter any data into the PDMP and
admitted that she could not vouch for the data’s reliability. They contend that the
government should have offered witnesses from each of the pharmacies across
Alabama, Florida, and Mississippi who actually entered prescription data into the
database. But this Court has held that “the proponent of a document ordinarily
need not be the entity whose first-hand knowledge was the basis of the facts sought
to be proved.” Bueno-Sierra, 99 F.3d at 379. The proponent must merely “establish
that it was the business practice of the recording entity to obtain such information
from persons with personal knowledge and the business practice of the proponent
to maintain the records produced by the recording entity.” Id. We are satisfied that
Bishop did that here. She testified that the pharmacists, who have knowledge of the
prescriptions, enter the data in the database at the same time they dispense the
controlled substances. Thus, subsection (A)’s requirement that “the record[s were]
78

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 79 of 137

made at or near the time by—or from information transmitted by—someone with
knowledge,” is met. Bishop further explained that federal law and regulations
require keeping prescription records, and state law requires submitting the data to
the PDMP. This makes keeping the records part of the pharmacies’ “regularly
conducted activity” as well as a “regular practice” of their business, as required by
subsections (B) and (C) of the business records exception. See also United States v.
Towns, 718 F.3d 404, 407-10 (5th Cir. 2013) (finding that logs and records a
business keeps because it is required to do so by state or federal regulations meet
this standard). Bishop further testified that the ADPH considered the PDMP
reports its “business records” and relies on the records through its “daily”
assistance to doctors and pharmacists in accessing the database as “a tool for the
prescribers and the dispensers ... to make the best clinical decision for their
patient.” She thus established that it was the ADPH’s “business practice” to obtain
and maintain the records. See Bueno-Sierra, 99 F.3d at 379.
Finally, the PDMP report itself does not lack trustworthiness under
subsection (E). The appellants point to the disclaimer the ADPH lists on each page
of the report stating that it “does not warrant the above information to be accurate
or complete” because the report is “based on the search criteria and the data
provided by the dispensing entities.” While we understand that the prescription
data is only as reliable as the individual putting it into the system, pharmacists have
79

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 80 of 137

every incentive to ensure the data they enter is accurate. Inaccurate data could lead
to dangerous drug interactions and overdoses as well as giving drugs to addicts or
to those who might sell them on a secondary market. Doctors and pharmacists use
the system every day to look up patients’ medication histories. The appellants
themselves accessed it thousands of times in their practice. The appellants have
failed to demonstrate the untrustworthiness of the pharmacists’ out of court
statements that they filled the prescriptions reported in the PDMP.
Because the PDMP reports comprised records of regularly conducted
activity made by persons with knowledge whose job duties entailed making those
records, and Bishop, as custodian, certified that information and there was no
evidence of untrustworthiness, we find that the district court properly admitted the
PDMP data under the business records exception to the hearsay rule.18
li.

Confrontation Clause

We now turn to the appellants’ claim that the admission of the PDMP data
violated their Sixth Amendment rights under the Confrontation Clause.19 A
defendant’s claim that an evidentiary ruling deprived him of a constitutional right
is reviewed de novo. Ignasiak, 667 F.3d at 1227. “In Crawford v. Washington[, 541

18

We need not address the government’s arguments that the PDMP data was also
admissible under the public records and residual exceptions to the hearsay rule. See Fed. R. Evid.
803(8) & 807.
19

A criminal defendant has the right “to be confronted with the witnesses against him.”
U.S. Const. amend.VI.
80

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 81 of 137

U.S. 36, 53-54 (2004)], the Supreme Court held that the Confrontation Clause bars
the admission of the testimonial statements of a witness who did not appear at trial
unless the witness was unavailable and the defendant had a prior opportunity to
cross-examine him or her.” United States v. Caraballo, 595 F.3d 1214, 1227 (11th
Cir. 2010). “Testimonial statements are ones ‘that declarants would reasonably
expect to be used prosecutorially.’” United States v. Wilson, 788 F.3d 1298, 1316
(11th Cir. 2015) (quoting Crawford, 541 U.S. at 51). The appellants contend the
reports are “testimonial” because the PDMP may assist law enforcement in
prosecuting violators of controlled substance laws.
We disagree for several reasons. First, a statement is testimonial when its
“primary purpose ... is to establish or prove past events potentially relevant to
later criminal prosecution,” Davis v. Washington, 547 U.S. 813, 822 (2006), and
when the statement is “formal,” akin to “affidavits, depositions, prior testimony, or
confessions,” Caraballo, 595 F.3d at 1228 (internal quotation marks omitted). On
the other hand, “[c]ertain statements ‘by their nature [are] not testimonial—for
example, business records or statements in furtherance of a conspiracy.’” Wilson,
788 F.3d at 1316 (quoting Crawford, 541 U.S at 56). Because the PDMP reports
are business records as explained above, they are not testimonial and do not violate
the Confrontation Clause. See United States v. Naranjo, 634 F.3d 1198, 1213-14
(11th Cir. 2011) (bank records and checks not testimonial).
81

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 82 of 137

Second, even if the reports were not business records, they are nonetheless
not testimonial. Pharmacists are required by law to enter the PDMP data for the
primary purpose of aiding physicians in treating patients, such as combating
addiction. See Ala. Code §§ 20-2-210, 213(d). In United States v. Barker, the Fifth
Circuit found a nurse’s report about a sexual assault non-testimonial, even though
she knew at the time she wrote it that it would be given to police and could be used
in a prosecution, because her primary purpose in writing the report was to
“medically evaluate and treat” the victim. 820 F.3d 167, 171-72 (5th Cir. 2016).
Similarly, here, the fact that the pharmacists may be aware when they input the
data that law enforcement also has access to the database if needed during an
investigation does not transform the data entry into the type of formal statement
required for testimonial evidence. The district court’s admission of the PDMP data
did not violate the appellants’ Confrontation Clause rights.
2.

Exclusion of Other Evidence

Next, the appellants argue that the district court erroneously excluded three
additional categories of evidence: (1) information about patients who received
legitimate medical care by Ruan and Couch (hereinafter “good patient” evidence);
(2) relatedly, videos of undercover agents posing as patients attempting to obtain
opioids from Ruan and being denied; and (3) the testimony of Debi Phillips
(“Phillips”), PPSA’s former operations manager, on various issues. Rather than
82

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 83 of 137

contend that the district court abused its discretion in deeming this evidence
irrelevant under Federal Rule of Evidence 401,20 the appellants argue that its
exclusion violated their Fifth and Sixth Amendment rights to present a complete
defense.21
“Whether the exclusion of evidence violated a constitutional guarantee is a
legal question reviewed de novo.” United States v. Sarras, 575F.3dll91, 1209
n.24 (11th Cir. 2009). “[T]he Constitution guarantees criminal defendants a
meaningful opportunity to present a complete defense.” United States v. Mitrovic,
890 F.3d 1217, 1221 (11th Cir. 2018) (quoting Nevada v. Jackson, 569 U.S. 505,
509 (2013)). However, this Court has recognized that this right “is not absolute,
and is subject to reasonable restrictions.” Id. (citing United States v. Scheffer, 523
U.S. 303, 308 (1998)). “[Sjtate and federal rulemakers have broad latitude under
the Constitution to establish rules excluding evidence from criminal trials. Such
rules do not abridge an accused’s right to present a defense so long as they are not
‘arbitrary’ or ‘disproportionate to the purposes they are designed to serve.’” Id.
(quoting Scheffer, 523 U.S. at 308). Indeed, the “trial judge’s role as gatekeeper is

20

See Todd, 108 F.3d at 1331 (a district court’s evidentiary rulings are reviewed for an
abuse of discretion).
21

The Sixth Amendment to the United States Constitution guarantees defendants the right
to have “compulsory process for obtaining witnesses in his favor.” U.S. Const, amend. VI; see
also United States v. Ramos, 933 F.2d 968, 974 (11th Cir. 1991) (“A criminal defendant’s right
to present witnesses in.his own defense during a criminal trial lies at the core of the fifth and
fourteenth amendment guarantees of due process.”).
83

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 84 of 137

to ensure that the factfinder bases its decision only on relevant and reliable
information.” Id. at 1222 (citing United States v. Frazier, 387 F.3d 1244, 1272
(11th Cir. 2004)). Thus, “[w]hile a criminal defendant must be given every
meaningful opportunity to present a.complete defense, in doing so he must comply
with the procedural and evidentiary rules designed to facilitate a search for the
truth.” Id. (quoting Frazier, 387 F.3d at 1272).
The appellants rely largely on United States v. Hurn, 368 F.3d 1359 (11th
Cir. 2004), for their position that, even if a particular rule of evidence would
normally bar the admission of certain evidence, there may sometimes be
compelling reasons to grant an exception to evidentiary rules. See id. at 1363 n.2
(“[T]he fact that a particular rule of evidence requires the exclusion of certain
evidence is not dispositive, as particular applications of a generally valid rule may
unconstitutionally deny a defendant his rights under the Compulsory Process or
Due Process Clauses.”). In Hurn, this Court pointed to four circumstances in which
a district court’s exclusion of a criminal defendant’s evidence might violate the
Constitution:
First, a defendant must generally be permitted to introduce evidence
directly pertaining to any of the actual elements of the charged offense
or an affirmative defense. Second, a defendant must generally be
permitted to introduce evidence pertaining to collateral matters that,
through a reasonable chain of inferences, could make the existence of
one or more of the elements of the charged offense or an affirmative
defense more or less certain. Third, a defendant generally has the right
to introduce evidence that is not itself tied to any of the elements of the
84

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 85 of 137

crime or affirmative defense, but that could have a substantial impact
on the credibility of an important government witness. Finally, a
defendant must generally be permitted to introduce evidence that, while
not directly or indirectly relevant to any of the elements of the charged
events, nevertheless tends to place the story presented by the
prosecution in a significantly different light, such that a reasonable jury
might receive it differently.
Id. at 1363 (footnotes omitted). The Court explained that two considerations are
appropriate in analyzing a defendant’s claim that his constitutional right to present
a defense was violated: (1) whether the right was actually violated, and (2) if so,
whether that error was harmless beyond a reasonable doubt. Id. at 1362-63.
Keeping these principles in mind, we address each of the appellants’
categories of excluded evidence in turn.
l.

“Good Patient”. Evidence and Undercover Videos

The government’s case against the appellants was built upon several dozen
PPSA patients whose treatment was alleged to be illegal out of the roughly 8,000
patients PPSA had in 2015. Specifically, the government presented live testimony
of 14 patients—or family members of deceased patients—who criticized the
appellants’ prescription of opioids and other medications to them. The government
also created a list of the appellants’ “top 28” patients who received Subsys or
Abstral and whose medical records did not indicate a diagnosis of cancer. Experts
reviewed these patients’ files and gave their opinions that Ruan and Couch’s care
of these patients did not meet minimum standards.
85

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 86 of 137

The appellants wished to present evidence about patients not identified by
the government and whose treatment was not alleged to be illegal. These “good
patients” would have testified about how their quality of life improved through the
care they received at PPSA. The district court concluded that this evidence was
irrelevant and would waste time in an already lengthy trial because the government
did not allege that PPSA was entirely a sham practice or that all of the appellants’
prescriptions were illegal.22 The appellants could, however, put on evidence
favorable to them from any patients identified or called by the government in its
case in chief. Indeed, Couch called five patients and Ruan called three.
The appellants argue that the district court impaired their right to present a
complete defense by excluding this “good patient” evidence, particularly the
testimony of Michael Tiller, one of Couch’s patients. Tiller intended to testify that
he believed that Subsys was beneficial to him, despite the off-label use; he
generally approved of Couch’s treatment of him and trusted him as his physician;
and his experiences at PPSA were consistent with his experiences at other

22

Federal Rule of Evidence 401 defines relevant evidence as that which “has any tendency
to make a fact [of consequence] more or less probable than it would be without the evidence.”
Even if evidence is relevant, Rule 403 nonetheless vests district courts with wide discretion to
exclude evidence if “its probative value is substantially outweighed by a danger of... unfair
prejudice, confusing the issues, misleading the jury, undue delay, wasting time, or needlessly
presenting cumulative evidence.”
86

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 87 of 137

physicians’ facilities.23 The appellants contend that Tiller’s proposed testimony
satisfies the first, second, and fourth categories of evidence summarized in Hum.
The first Hum circumstance is implicated when evidence is excluded that
directly pertains to a formal element of a charged offense. See 368 F.3d at 1363.
The appellants contend that Tiller’s testimony would have helped disprove Counts
2, 3, and 4—conspiracies to knowingly or intentionally prescribe controlled
substances outside the usual course of professional practice or without a legitimate
medical purpose. We disagree. The appellants were not charged with illegally
prescribing medicine to all their patients, and the jury was aware that they had
thousands of patients to whom they may have provided legitimate care. However, a
finding that even one prescription was illegal—or for the RICO count, at least two
acts of racketeering activity—sufficed to convict for the Controlled Substances Act
violations. Thus, whether Tiller approved of his treatment by Couch does not
“directly pertain” to whether the appellants’ treatment of the many other patients
identified by the government was outside the course of professional practice. See
Hum, 368 F.3d at 1363.
The second category of Hum evidence is that which, though not directly
bearing on an element of the offense charged, tends to prove collateral matters

23

Couch submitted a written proffer to the district court regarding only Tiller’s proposed
testimony but contends that he would have called additional “good patients” if the court had
permitted him to do so.
87

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 88 of 137

relating to the defense. See 368 F.3d at 1364. The appellants argue that Tiller’s
testimony would have tended to prove that Couch was operating a legitimate
practice, a collateral matter. In discussing this category, the Hum court addressed
the introduction of evidence that tends to negate the mens rea of an offense. Id. at
1364-65. Hurn cited as an example United States v. Sheffield, 992 F.2d 1164 (11th
Cir. 1993), in which the defendant, an Air Force employee, was convicted of
embezzling Air Force property by ordering subordinates to make fishing lures with
base property and on government time. Id. at 1165. This Court held that evidence
should have been admitted of a legitimate custom on an Air Force base of making
retirement presents for high-ranking officials using base materials because it would
have rebutted the mens rea element of the offense of embezzlement. Id. If the
defendant was acting pursuant to a legitimate custom when he ordered the
production of the lures, he did not possess the state of mind necessary for the
offense of embezzlement. Id. at 1170.
Here, however, Tiller’s testimony does not tend to negate the mens rea
element of the Controlled Substances Act offenses— knowingly or intentionally
prescribing controlled substances outside the usual course of professional practice
or without a legitimate medical purpose. Nowhere did the government allege that
Couch’s treatment of Tiller was outside the usual course of professional practice,
and nothing Tiller would have testified about would have been probative of
88

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 89 of 137

Couch’s actions towards the patients that the government asserted were provided
with illegal prescriptions, like Officer Kelley, who received powerful opioids from
Couch after only a cursory visit with him and without a showing of medical need.
Nor have the appellants established that the fourth type of evidence in Hurn
is implicated in this case—that which “complete[s] the picture” of the charged
crimes and presents the government’s evidence in a more favorable or different
light that might influence a reasonable juror. See 368 F.3d at 1367. This
circumstance recognizes that defendants have a right to combat “the government’s
selective presentation of entirely truthful evidence [that] cast[s] a defendant in an
inaccurate, unfavorable light” or that makes “entirely legitimate, normal, or
accepted acts appear unusual or suspicious.” Id. at 1366-67. The Hurn court held
that a defendant should be allowed “to introduce additional evidence to dispel this
unjustified taint, even if that evidence does not directly or indirectly bear on a
particular element of an offense.” Id. at 1367. For instance, in Todd, 108 F.3d at
1333, the defendant was convicted of embezzling from his company’s employee
retirement fund plan. The government used evidence that the defendant and his
family members who worked at the company all received extremely high salaries
to prove the defendant’s greed and motive to steal. Id. This Court reversed the
defendant’s conviction because he was not permitted to introduce evidence that all
employees who worked at his company, not just his family members, received
89

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 90 of 137

large salaries and benefits. Id. at 1334. Such evidence would have “complete[d] the
picture,” see Hum, 368 F.3d at 1367, by putting “a different spin” on the
defendant’s intent, see Todd, 108 F.3d at 1334. Similarly in Sheffield, this Court
noted that the retirement gift evidence, aside from being probative of the
defendant’s intent or lack thereof to embezzle, also should have been admitted to
“put the charges against Mr. Sheffield in context, ‘to complete the story of the
crime on trial.’” 992 F.2d at 1170 (quoting United States v. Mills, 704 F.2d 1553,
1559(11th Cir. 1983)).
But here, the “good patient” evidence was not necessary to “complete the
picture,” because it was undisputed that the appellants treated thousands of patients
and there was no allegation that they mistreated them all. Indeed, the government
told the jury in its opening:
[Tjhere were definitely some [patients] that were treated very
appropriately in this office. There is no question about that, that there
were certainly instances where Dr. Ruan and Dr. Couch did a really
good job for their patients. We’re not here because of that. We’re here
for the times that they were prescribing these drugs outside the usual
course of professional practice.
The admonition was repeated in closing: “By and large their patients were
legitimate patients. And I told you right from the very start and it has always been
our contention that a majority of the patients that went there had legitimate pain
needs and were in need of legitimate pain treatment.” Thus, there was no need to
dispel the “taint” that PPSA was a sham practice. PPSA only accepted patients
90

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 91 of 137

with insurance and refused patients paying cash. Diagnostic tools such as nerve
conduction tests, fluoroscopes, electromyographs, and MRIs were frequently used
to discover the source of patient pain. Ken Cross, PPSA’s former manager and a
government witness, described PPSA in 2014 as “one of the best, well-rounded
pain centers in this area.” In sum, Tiller’s testimony “was not necessary to correct
any misleading impressions that may have been created by the government’s
evidence.” See Hum, 368 F.3d at 1367.
For the same reasons, Ruan was not prejudiced by the district court’s
exclusion of undercover videos of DEA agents acting as “patients” seeking opioids
from him but being denied. As noted, the government introduced videos at trial
from Officer Kelley’s appointments with Couch at PPSA, which comprised Counts
5-7 against him for illegal drug distribution. The DEA had also sent two
undercover patients to see Ruan, but neither received opioid prescriptions. A nurse
practitioner examined each patient, and each was then seen by Ruan, who told
them that it was not appropriate to prescribe controlled substances because of
better alternatives. One was referred for surgery, and the other given an anti­
inflammatory ointment. At a pretrial conference, the government successfully
moved to prevent Ruan from introducing these videos at trial. Akin to Tiller’s
testimony, these videos do not refute the inculpatory evidence against Ruan
demonstrating that at other times, Ruan did prescribe opioids to patients outside the
91

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 92 of 137

usual course of professional practice or without a legitimate medical purpose, such
as in the four patient files reviewed by Dr. Greenberg comprising Counts 8, 9, 11,
and 12.
Before concluding that there was no theory under which the appellants’
constitutional rights were violated by the district court’s evidentiary rulings, we
emphasize that we have carefully considered the appellants’ contention that the
government’s closing arguments compounded the prejudice they suffered from the
inability to present “good patient” evidence. Specifically, the appellants point to
three statements made by the prosecutor in rebuttal closing: “The defendants had
the same subpoena power as the United States of America. That means they can
subpoena anybody they want to come in this courtroom, just like the United States
can.”; “The[ appellants] could call anybody they wanted to in connection with this
case.”; and later, “We called for you 14 patients in comparison to the few patients
the defense called

”. The appellants contend that these statements implied that

Ruan and Couch could not find witnesses who benefitted from their treatment to
rebut the many witnesses that testified for the government, even though the
government had obtained a motion in limine prohibiting evidence of “good

'

patients.” They raised this issue in their motion for a new trial, which the district
court denied.

92

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 93 of 137

However, when viewed in context, at least the first two statements are not
as egregious as they first appear. The prosecutor was not discussing the ability of
the appellants to call patient-witnesses in their favor but was instead addressing the
adequacy of the government’s own charts, specifically the appellants’ ability to
call statisticians or other experts to critique those charts:
Now, both attorneys told you that all this is is [sic] numbers, that the
government just put up all these charts, pie charts, picture charts. The
defendants had the same subpoena power as the United States of
America. That means they can subpoena anybody they want to come in
this courtroom, just like the United States can. If those charts aren’t
accurate, if those charts weren’t what was happening, don’t you think
they would have brought you somebody to tell you that this chart is not
right?
This isn’t what the facts showed. This isn’t what the numbers are. And
they want to tell you that numbers don’t mean anything. But numbers
control. You can’t wait to be 16. You can’t wait to be 21, you can’t wait
to make a 100 on a test. Most everything we do has to do with numbers.
And if these numbers weren’t correct, these charts weren’t correct,
they’d be the first one to show you and tell you with evidence and with
witnesses.
In connection with that, they could also have called doctors who would
have said that they referred people to these doctors. That didn’t happen.
They could call anybody they wanted to call in connection with this
case.
The third remark, however, gives us pause. The prosecutor argued that “[i]t doesn’t
have to be 50, it doesn’t have to be 1000” inappropriate prescriptions; one
prescription outside the usual course of professional practice “is breaking the law.”
She then recounted several of the patients the government had called and, in
93

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 94 of 137

transitioning to discuss one called by the defense, commented that “[w]e called for
you 14 patients in comparison to the few patients the defense called.” This
statement is troubling because the government knew that the appellants were
prevented from having patients testify that their quality of life had improved
through care received by Ruan and Couch.
“[A] prosecutor must refrain from improper methods calculated to produce a
wrongful conviction.” United States v. Rodriguez, 765 F.2d 1546, 1559 (11th Cir.
1985). For example, a prosecutor may not make “improper suggestions,
insinuations and assertions calculated to mislead the jury.” Id. (quoting United
States v. Phillips, 664 F.2d 971, 1030 (5th Cir. Unit B 1981)). To establish
prosecutorial misconduct, a defendant must establish that the remarks were
improper and that they prejudicially affected his substantial rights. United States v.
Lopez, 590 F.3d 1238, 1256 (11th Cir. 2009). “A defendant’s substantial rights are
prejudicially affected when a reasonable probability arises that, but for the
remarks, the outcome of the trial would have been different. When the record
contains sufficient independent evidence of guilt, any error is harmless.” Id.
(quoting United States v. Eckhardt, 466 F.3d 938, 947 (11th Cir. 2006)). In
determining whether a prosecutor’s remarks had a reasonable probability of
changing the trial’s outcome, this Court may look to:
(1) the degree to which the challenged remarks have a tendency to
mislead the jury and to prejudice the accused;
94

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 95 of 137

(2) whether they are isolated or extensive;
(3) whether they were deliberately or accidentally placed before the
jury; and
(4) the strength of the competent proof to establish the guilt of the
accused.
Id. (quoting Davis v. Zant, 36 F.3d 1538, 1546 (11th Cir. 1994)).
The prosecutor’s remarks were improper, but when examined in the context
of the entire trial, the appellants cannot show that the remarks prejudiced them. As
mentioned, the jury knew that the appellants treated thousands of patients and were
not alleged to have mistreated them all. The three remarks were a minor portion of
lengthy closing arguments in a lengthy trial, and the evidence of the appellants’
guilt for violating the Controlled Substances Act was substantial. Additionally, the
district court repeatedly instructed the jury that the attorneys’ arguments were not
evidence. See Rodriguez, 765 F.2d at 1560 (curative instructions considered in
determining prejudice from prosecutorial misconduct). For all of these reasons, we
conclude that the district court’s exclusion of “good patient” evidence did not
violate the appellants’ constitutional right to present a complete defense.
u.

Phillips’s Testimony

The appellants also argue that three separate limitations placed on the
testimony of PPSA’s former operations manager, Phillips, violated their rights to
present a complete defense. First, the government put on evidence that PPSA’s
95

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 96 of 137

electronic medical records frequently contained descriptions of physical
examinations conducted by the doctors that never actually happened. The
government often asked the PPSA patients that it called to testify about having a
light shown in their eyes or having their thyroid checked, with the patients saying it
did not happen, despite the medical record purportedly showing otherwise. To
rebut this evidence, the appellants called Phillips to explain PPSA’s billing practice
and operations. She testified that the electronic records system PPSA used relied
on templates to pre-populate office visit notes with exams performed* even if the
exams were not actually performed. Using a sample patient file that Phillips did
not actually work on, Couch asked her to explain how a biller at the office would
have reviewed the doctor’s notes for an office visit to determine that the bill had
been coded correctly for submission to insurance companies. Because Phillips did
not prepare the bill for the patient, she was permitted to explain only “what was
generally looked at.” Phillips nonetheless testified at length, explaining that a biller
typically reviewed the recorded “chief complaint, history of present illness, review
of systems,” and diagnostic code. But when Couch sought to ask her about a
specific physical exam listed in the sample bill, the court concluded that she lacked
personal knowledge. The appellants say that if allowed, Phillips would have
explained that these pre-populated fields were not used to select the billing level
that PPSA submitted to insurers, and they submitted a proffer to that extent.
96

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 97 of 137

The appellants contend that this evidence triggers the second Hurn factor,
collateral evidence relative to proving a defense, see 368 F.3d at 1367, because it
rebuts the government’s evidence suggesting that the appellants committed fraud
by listing unnecessary or unperformed examinations in order to increase billing
revenue. We find no prejudice because the government successfully proved health
care and mail or wire fraud through other illegal acts unrelated to Phillips’s
testimony about billing codes, such as that PPSA falsely certified to insurers that
some patients had cancer so that the insurers would pay for their TIRF
prescriptions, and that PPSA improperly billed BCBS for office visits conducted
by nurse practitioners using Couch’s physician identification number. We thus find
that the excluded evidence could not have affected the trial’s outcome.
The second limitation on Phillips’s testimony that the appellants challenge
occurred after the government cross-examined her about PPSA’s practice of billing
insurers for visits conducted by physicians when only Palmer saw patients. Phillips
testified that Palmer was in collaboration with Couch. On redirect examination,
Couch sought to ask Phillips whether “there [is] guidance out there on billing for a
practice when a nurse practitioner and a doctor bill in collaboration?” The
government objected that the question was too general to elicit a relevant answer
and reminded the court that BCBS had different requirements than other insurers.

97

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 98 of 137

The court sustained the objection, and Couch did not rephrase the question in a
more specific way.
The appellants contend that Phillips would have testified that she consulted
the Alabama Board of Medical Examiners’ guidance and was satisfied that PPSA’s
collaborative practice followed the relevant guidelines, and they submitted a
proffer to that effect. According to the appellants, evidence that Phillips made
efforts to ensure that the doctors’ collaborative practice was compliant with the law
would negate any intent to defraud health care companies by billing for services
performed by nurse practitioners. Thus, they contend the exclusion of this
testimony was error under the first Hum category because it would disprove one of
the elements of health care and mail or wire fraud charged in Counts 15 and 19: the
intent to defraud.
We again disagree. The specific charge was that the appellants violated a
policy specific to BCBS requiring doctors to actually see patients before using the
higher billing number. Neither the Alabama Board of Medical Examiners’
guidance on collaborative practice nor the fact that other insurers may not have had
that same policy was relevant to the charge.
The third limitation on Phillips’s testimony challenged by the appellants
occurred as she was recalling Officer Kelley’s first undercover visit to PPSA, when
he was turned away because he did not have insurance until his “referring
98

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 99 of 137

chiropractor,” Dr. Wetzel, who was working with the DEA, made a call to PPSA
requesting that they make an exception for a cash-only patient. Phillips testified
that she overheard PPSA’s new patient coordinator, Shannon Hackworth, speaking
with Dr. Wetzel and that Hackworth was “upset” and “crying.” Phillips then spoke
to Dr. Wetzel for a few minutes, after which Officer Kelley was permitted to keep
his appointment and pay cash “only for that visit.” The district court sustained the
government’s hearsay objection regarding what Dr. Wetzel told Phillips,
explaining that it was “already in that [PPSA] accepted him . . . because of Dr.
Wetzel’s insistence . . . [T]here’s nothing else that’s relevant.” Couch then
attempted to elicit from Phillips that Dr. Wetzel was angry, made comments that
Phillips perceived as threats, and vouched for his “patient” Officer Kelley by
saying that he was a business owner and had sufficient funds to pay for his visit.
However, the district court sustained the government’s objection to relevance,
finding that Couch was not charged with giving Officer Kelley an appointment but
with illegally prescribing him controlled substances.
The appellants argue that Phillips’s testimony would have placed Officer
Kelley’s first visit in a different light and completed the picture for the jury, see
Hum, 368 F.3d at 1363, by explaining why Phillips decided to allow a cash-only
patient into PPSA—she felt pressured by Dr. Wetzel’s allegedly threatening call.

99

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 100 of 137

However, we don’t see an error of constitutional magnitude here. The fact
that Dr. Wetzel’s call precipitated Officer Kelley’s admittance to the practice had
been established during Officer Kelley’s own testimony and was not in dispute.
There was no evidence that either Palmer or Couch knew about the call, and thus it
could not have affected their decisions to prescribe Officer Kelley drugs that he did
not need. In other words, information that Phillips felt threatened by Dr. Wetzel’s
insistence that PPSA take Officer Kelley in would have not given the jury a reason
to acquit Couch of the charges related to his conduct during Officer Kelley’s visits.
3.

Expert Testimony

The appellants also argue that government expert Dr. Aultman was not
qualified to give her opinions, and that the district court improperly limited their
cross-examination of her. The district court overruled these objections at trial. A
district court’s decisions regarding the admissibility of expert testimony will not be
set aside unless we determine that the court abused its discretion. Frazier, 387 F.3d
at 1259. “By definition . . . under the abuse of discretion standard of review there
will be occasions in which we affirm the district court even though we would have
gone the other way had it been our call.” Id. (quoting In re Rasbury, 24 F.3d 159,
168 (11th Cir. 1994)). In order to reverse, we must find that the district court “has
made a clear error of judgment, or has applied the wrong legal standard.” Id.
(citing Maiz v. Virani, 253 F.3d 641, 662 (11th Cir. 2001)).
100

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 101 of 137

We first address Dr. Aultman’s qualifications. The proponent of the expert’s
testimony must show that the expert is qualified based on her “knowledge, skill,
experience, training, or education.” Frazier, 387 F.3d at 1261 (emphasis omitted)
(quoting Fed. R. Evid. 702).24 Based on her training and experience, we find that
Dr. Aultman was qualified as an expert to testify as to whether Ruan and Couch’s
treatment of some patients was outside the usual course of professional practice.
Dr. Aultman has a medical degree and completed a residency in internal medicine.
She has practiced for over twenty years in Mississippi: at the time of trial she was a
hospitalist, but she has also practiced general medicine in a private clinic and
palliative care in a hospice setting. She regularly prescribes opioids,
benzodiazepines, and muscle relaxers to patients with acute and chronic pain, and

24

Rule 702 provides:
A witness who is qualified as an expert by knowledge, skill, experience, training,
or education may testify in the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other specialized knowledge will
help the trier of fact to understand the evidence or to determine a fact in
issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and methods; and
(d) the expert has reliably applied the principles and methods to the facts of
the case.

Fed. R. Evid. 702.
101

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 102 of 137

she has prescribed fentanyl to hospice patients. She has previously testified as an
expert witness in federal court cases involving illegitimate pain-medication
prescriptions and has reviewed patient files for the DEA since 2002. Dr. Aultman
testified generally about the doctor-patient relationship, examination and
prescribing practices, pain assessments, and documenting patient information. She
also testified specifically regarding her review of the medical files of four PPSA
patients and Officer Kelley, opining that the appellants’ treatment of these patients
was outside the usual course of professional practice, as shown by a lack of
accurate patient histories and the infrequent use of non-opioid treatment options.
Her testimony pertained to Counts 1-7 and 15, as each depended on allegations of
prescribing outside the usual course of professional practice.
We are not concerned, although the appellants say we should be, that Dr.
Aultman is not a board-certified pain management physician and does not have her
own specialty clinic like PPSA. This Court has held that a “proffered physician
need not be a specialist in the particular medical discipline to render expert
testimony relating to that discipline.” McDowell v. Brown, 392 F.3d 1283, 1297
(11th Cir. 2004) (quoting Gaydar v. Sociedad Institute Gineco-Quirurgico y
Planifacacion, 345 F.3d 15, 24 (1st Cir. 2003));25 see also Gayton v. McCoy, 593

25

In McDowell, the court allowed a neurologist to testify regarding the standard of care of
jail nurses. Id. Granted, the court looked to Georgia state law to determine the qualifications of
102

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 103 of 137

F.3d 610, 617 (7th Cir. 2010) (“[C]ourts often find that a physician in general
practice is competent to testify about problems that a medical specialist typically
treats.”);26 Dickenson v. Cardiac & Thoracic Surgery ofE. Tenn., 388 F.3d 976,
979-80, 982 (6th Cir. 2004) (reversing'a district court’s exclusion of a cardiac
thoracic surgeon’s testimony on the standard of care applicable to pulmonologists);
Doe v. Biological, Inc., 971 F.2d 375, 385 (9th Cir. 1992) (“The fact that the
experts were not licensed hematologists does not mean that they were testifying
beyond their area of expertise. Ordinarily, courts impose no requirement that an
expert be a specialist in a given field, although there may be a requirement that he
or she be of a certain profession, such as a doctor.”); United States v. Viglia, 549
F.2d 335, 336-37 (5th Cir. 1977) (pediatrician may testify about drug’s effect on
obese persons despite no experience treating obese patients). Despite not being a
pain management specialist, Dr. Aultman’s familiarity with prescribing opioids
and treating chronic pain qualified her to opine on the appellants’ conduct.
Additionally, the appellants questioned Dr. Aultman on cross-examination
about her experience treating pain. They even established that as a hospitalist, she

an expert, rather than the Federal Rules of Evidence, but we don’t find any serious differences
between the two regarding this issue. Id. at 1295-97.
26

In Gayton, the Seventh Circuit held that a physician was not unqualified to testify about a
heart-related death merely because he was not a cardiologist, but it ultimately upheld the
exclusion of the physician’s testimony because he lacked the necessary qualifications. Id. at 61718.
103

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 104 of 137

did not have her own clinical practice and that when a patient “presented with a
significant amount of pain that was beyond [her] specialization, [she] referred that
patient” to someone else. “A district court’s gatekeeper role ... ‘is not intended to
supplant the adversary system or the role of the jury.’” Maiz, 253 F.3d at 666
(quoting Allison v. McGhan, 184 F.3d 1300, 1311 (llthCir. 1999)). “Vigorous
cross-examination, presentation of contrary evidence, and careful instruction on the
burden of proof are the traditional and appropriate means of attacking [debatable]
but admissible evidence.” Id. (quoting Allison, 184 F.3d at 1311). We find no
abuse of discretion in the admission of Dr. Aultman as an expert, and the weight of
her testimony was for the jury to evaluate.
We turn now to the appellants’ claim that the district court improperly
limited their cross-examination of Dr. Aultman. First, Couch sought to elicit a
statement from Dr. Aultman that she could not practice pain management in
Mississippi under a 2016 requirement by that state’s medical licensing board that
pain management doctors have either completed a residency in that sub-specialty
or be board certified in it, or otherwise have completed 100 hours of specialized
continuing medical education. The district court did not abuse its discretion in
sustaining the government’s relevance objection to this line of questioning. “[T]he
district court enjoys ‘wide latitude’ to impose ‘reasonable limits’ on crossexamination based on, among other things, ‘confusion of the issues’ and
104

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 105 of 137

‘interrogation that is repetitive or only marginally relevant.’” United States v.
Maxwell, 579 F.3d 1282, 1296 (11th Cir. 2009) (quoting Delaware v. Van Arsdall,
475 U.S. 673, 679 (1986)). Dr. Aultman’s cross-examination had already
established that she had never been board certified in pain management, had a
residency or fellowship in pain management, or been peer reviewed in a pain
management journal. That she was not licensed in Mississippi as a pain
management specialist was repetitive and would have risked confusing the jury,
considering that Mississippi’s standards did not govern the appellants’ Alabama
practice and did not go into effect until after the indictment period in this case.
The appellants also contend that the district court erred in limiting the scope
of Ruan’s cross-examination of Dr. Aultman regarding her previous work for the
government. Dr. Aultman testified that she had been paid about $7,600 for her
work on the appellants’ case and that she had worked for the DEA or the
Department of Justice on “five or six cases last year [2016].” Ruan asked her to
confirm that between 2000 and 2014, she “had signed government contracts
totaling more than $325,000.” The government objected that payments for other
contracts were irrelevant, and the district court sustained the objection.
The government contends that there was no error here since the jury had
already heard of Dr. Aultman’s $7,600 fee for this case; the evidence of the
additional contract amounts would have been cumulative; and the district court had
105

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 106 of 137

discretion to curtail the cross-examination. We disagree. “While the district court
has ‘discretionary authority to rule on the admissibility of evidence, including the
power to limit cross-examination,’ this discretion is limited by the guarantee of the
Sixth Amendment’s Confrontation Clause that a criminal defendant has the right to
cross-examine prosecutorial witnesses.” Maxwell, 579 F.3d at 1295 (quoting
United States v. Garcia, 13 F.3d 1464, 1468 (11th Cir. 1994)). “In particular,... ‘a
presumption favors free cross-examination on possible bias, motive, ability to
perceive and remember, and general character for truthfulness.’” Id. at 1295-96
(quoting United States v. Phelps, 733 F.2d 1464, 1472 (11th Cir. 1984)). “[T]he
test for the Confrontation Clause is whether a reasonable jury would have received
a significantly different impression of the witness’ credibility had counsel pursued
the proposed line of cross-examination.” Id. at 1296 (quoting Garcia, 13 F.3d at
1469). Aside from Confrontation Clause concerns, proof of bias or motive to lie is
also almost always relevant under Federal Rule of Evidence 402, as “[a] successful
showing of bias on the part of a witness would have a tendency to make the facts to
which he testified less probable in the eyes of the jury than it would be without
such testimony.” United States v. Abel, 469 U.S. 45, 51-52 (1984).
Applying these principles leads us to the conclusion that the district court
abused its discretion by allowing the jury to believe that Dr. Aultman’s financial
involvement with the government was substantially less than was accurate. All the
106

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 107 of 137

jury knew is that Dr. Aultman had been paid roughly $7,600 in expert fees for this
case, and the appellants sought to show that she had signed contracts over 40 times
that much from the government over the years. This evidence was certainly not
cumulative and instead would have been probative of Dr. Aultman’s credibility in
light of her extensive relationship with the government.
This Court held similarly in United States v. Williams, 954 F.2d 668 (11th
Cir. 1992). There, the district court allowed a government informant to testify
regarding the percentage (25%) he received from successful undercover operations
and the amount of money he had already been paid in that case. Id. at 671-72.
However, the district court excluded testimony detailing the total amount of money
the informant had received for his work as an informant because the sum was
“outrageous” and therefore prejudicial. Id. at 671, 672 n.3. That evidence included
the fact that the informant had received $450,000 in reward money, including 25%
of a $1,258,000 seizure (i.e., $314,500). Id. This Court reversed, reasoning that
“[t]he jury has the right to know what may be motivating a witness, especially a
government paid, regularly employed, informant-witness.” Id. at 672; see also
Collins v. Wayne Corp., 621 F.2d 777, 784 (5th Cir. 1980) (“A showing of a
pattern of compensation in past cases raises an inference of the possibility that the
witness has slanted his testimony in those cases so he would be hired to testify in
future cases.”).
107

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 108 of 137

Ultimately, however, although we find that the district court abused its
discretion in limiting this testimony, we find the error harmless. “[Ejvidentiary and
other nonconstitutional errors do not constitute grounds for reversal unless there is
a reasonable likelihood that they affected the defendant’s substantial rights; where
an error had no substantial influence on the outcome, and sufficient evidence
uninfected by error supports the verdict, reversal is not warranted.” United States v.
Arbolaez, 450 F.3d 1283, 1290 (11th Cir. 2006) (quoting United States v. Hawkins,
905 F.2d 1489, 1493 (11th Cir. 1990)). As previously detailed, there was ample
other evidence aside from Dr. Aultman’s testimony to convict the appellants of
RICO conspiracy (Count 1), drug distribution conspiracies (Counts 2—4), and
health care fraud conspiracy (Count 15). Thus, it is unlikely that Dr. Aultman’s
testimony affected the outcome on those charges. Couch specifically argues that
the error was not harmless because Dr. Aultman was the only expert to review the
medical file of undercover DEA agent Officer Kelley, whose treatment by Couch
formed the basis of Counts 5-7. Recall that her opinion was that Couch prescribed
controlled substances to Officer Kelley outside the usual course of professional
practice. However, this Court has held that expert testimony, while helpful, is not
required to prove violations of the Controlled Substances Act, and “a jury can find
that a doctor prescribed controlled substances not in the usual course of his medical
practice and was acting other than for a legitimate medical purpose from evidence
108

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 109 of 137

received from lay witnesses surrounding the facts and circumstances of the
prescriptions.” Joseph, 709 F.3d at 1103 (quoting United States v. Rogers, 609
F.2d 834, 839 (5th Cir. 1980)). In additional support of these counts, Officer
Kelley himself testified that he did not need the opioids that Couch prescribed him,
and the jury viewed the undercover videos of his visits to PPSA. The jury saw that
Officer Kelley touched the floor without pain and heard him request “Roxy” pills.
They heard that a drug test and a PDMP check would have shown that he was
neither filling the prescriptions nor taking the drugs. This evidence, which suggests
that Couch prescribed controlled substances to Officer Kelley only after a cursory
visit with him and without a showing of medical need, was sufficient to convict
Couch on Counts 5-7, without Dr. Aultman’s additional opinion.
C.

Jury Instructions

The appellants next contend that the district court erred in refusing to give
their proposed jury instruction regarding Counts 1-7, 13-15, and 17, which
addressed specifically the applicable standard by which to judge a physician’s
conduct for violations of the Controlled Substances Act. The appellants’ proposed
“Instruction 18” stated in pertinent part:
In making a medical judgment concerning the right treatment for an
individual patient, physicians have wide discretion to choose among a
wide range of options. No single national standard exists. Therefore, in
determining whether a Defendant acted without a legitimate medical
purpose or outside the usual course of professional practice, you should
109

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 110 of 137

examine all of a Defendant’s actions and the surrounding
circumstances.
If a physician dispenses or distributes a Controlled Substance in good
faith while medically treating a patient, then the physician has
dispensed or distributed that Controlled Substance for a legitimate
medical purpose and within the usual course of professional practice,
and you must return a not guilty verdict for the applicable count. Good
faith in this context means good intentions and the honest exercise of
professional judgment as to the patient’s needs. It means that the
Defendant acted in accordance with what he reasonably believed to be
proper medical practice. If you find that a Defendant acted in good faith
in dispensing or distributing a Controlled Substance, as charged in the
indictment, then you must return a not guilty verdict.
The Government must prove, beyond a reasonable doubt, that the
decision to dispense or distribute a Controlled Substance fell below a
standard of medical practice generally recognized and accepted in the
United States before you can return a guilty verdict as to that alleged
violation of the Controlled Substances Act. But a Defendant’s
negligence, failure to meet a standard of care, or medical malpractice,
on its own is not enough to convict him. An unintentional failure to act
how a reasonable doctor would have under similar circumstances is, by
itself, insufficient to prove that a Defendant dispensed or distributed a
Controlled Substance outside the usual course of professional practice
and for no legitimate medical purpose.
To prove a violation of the Controlled Substances Act in this case, the
Government must prove, beyond a reasonable doubt, that the
physician’s decisions to distribute or dispense a Controlled Substance
were inconsistent with any accepted method of treating a pain patient that the physician, in fact, operated as a drug pusher.
The district court refused to give the appellants’ proposed instruction for
several reasons. The court found too subjective the appellants’ request that the
court equate subjective “good faith”—acting with “good intentions and the honest
exercise of professional judgment as to the patients’ needs”—with prescribing “for
110

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 111 of 137

a legitimate medical purpose and within the usual course of professional practice.”
The court also found that the language distinguishing the civil standard of care
from the criminal standard would unnecessarily confuse the jury, and that the
language requiring proof that the physician operated as a “drug pusher” was legally
incorrect.
The district court instead instructed the jury as follows:
For a controlled substance to be lawfully dispensed by a prescription,
the prescription must have been issued by a practitioner both within the
usual course of professional practice and for a legitimate medical
purpose. If the prescription was issued either, one, not for a legitimate
medical purpose or, two, outside the usual course of professional
practice, then the prescription was not lawfully issued.
A controlled substance is prescribed by a physician in the usual course
of professional practice and, therefore, lawfully if the substance is
prescribed by him in good faith as part of his medical treatment of a
patient in accordance with the standard of medical practice generally
recognized and accepted in the United States. The appellants in this
case maintain at all times they acted in good faith and in accordance
with standard of medical practice generally recognized and accepted in
the United States in treating patients.
Thus a medical doctor has violated section 841 when the government
has proved beyond a reasonable doubt that the doctor’s actions were
either not for a legitimate medical purpose or were outside the usual
course of professional medical practice.
This Court reviews a district court’s rejection of a proposed jury instruction
for an abuse of discretion. United States v. Jockisch, 857 F.3d 1122, 1126 (11th
Cir. 2017). A district court commits reversible error if: “(1) the requested
instruction was a correct statement of the law, (2) its subject matter was not
111

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 112 of 137

substantially covered by other instructions, and (3) its subject matter dealt with an
issue in the trial court that was so important that failure to give it seriously
impaired the defendant’s ability to defend himself.” United States v. Carrasco, 381
F.3d 1237, 1242 (11th Cir. 2004) (quoting United States v. Paradies, 98 F.3d 1266,
1286 (11th Cir. 1996)). A district court may properly refuse to give an instruction
that fails any one of these prongs. See Jockisch, 857 F.3d at 1126.
1.

Good Faith Instruction

We first address the appellants’ proposed “good faith” instruction, which we
find is an incorrect statement of the law. This Court has held that “[wjhether a
defendant acts in the usual course of his professional practice must be evaluated
based on an objective standard, not a subjective standard.” Joseph, 709 F.3d at
1097; see also Tobin, 676 F.3d at 1282-83; Merrill, 513 F.3d at 1306; United
States v. Williams, 445 F.3d 1302, 1309 (11th Cir. 2006), abrogated on other
grounds by United States v. Lewis, 492 F.3d 1219, 1220 (11th Cir. 2007) (en banc).
This rule reflects the Supreme Court’s decision in United States v. Moore, 423 U.S.
122 (1975), the first case by the Supreme Court establishing that physicians can be
prosecuted for violating the Controlled Substances Act “when their activities fall
outside the usual course of professional practice.” Id. at 124. Yet under the
appellants’ proposed instruction, as long as a physician subjectively believes that
he is meeting a patient’s medical needs by prescribing a controlled substance, then
112

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 113 of 137

he cannot be convicted of violating the Act no matter how far outside the bounds
of professional medical practice his conduct falls. In other words, good faith is a
complete defense. This Court has repeatedly rejected good faith instructions nearly
identical to that proposed by the appellants here because they failed to include the
objective standard by which to judge the physician’s conduct. See Joseph, 709 F.3d
at 1097; Merrill, 513 F.3d at 1305; Williams, 445 F.3d at 1309. And in these cases,
this Court has approved the same instruction that the district court ultimately gave
here:
A controlled substance is prescribed by a physician in the usual course
of a professional practice and, therefore, lawfully, if the substance is
prescribed by him in good faith as part of his medical treatment of a
patient in accordance with the standard of medical practice generally
recognized and accepted in the United States.
Joseph, 709 F.3d at 1092; Tobin, 676 F.3d at 1281; Merrill, 513 F.3d at 1306;
Williams, 445 F.3d at 1309.
The appellants recognize that this Court has rejected nearly identical
proposed jury instructions but argue that this Court should reconsider its prior
holdings. However, under the Eleventh Circuit’s prior panel precedent rule, this
Court is bound by its holdings in Williams and Joseph. See United States v. Steele,
147 F.3d 1316, 1317-18 (11th Cir. 1998) (en banc) (“Under our prior precedent
rule, a panel cannot overrule a prior one’s holding even though convinced it is
wrong.”); see also Smith v. GTE Corp., 236 F.3d 1292, 1303 (11th Cir. 2001)
113

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 114 of 137

(“[W]e categorically reject any exception to the prior panel precedent rule based
upon a perceived defect in the prior panel’s reasoning or analysis as it relates to the
law in existence at that time.”).
Nor did the district court’s refusal to give the appellants’ proposed “good
faith” instruction seriously impair the appellants’ ability to present an effective
defense. The district court’s instruction told the jury that good faith was a defense
to a Controlled Substances Act violation as long as the appellants’ conduct also
was in accordance with the standards of medical practice generally recognized and
accepted in the United States, and it highlighted that the appellants “maintain[ed]
at all times they acted in good faith and in accordance with [that] standard.” The
jury could have accepted this defense and acquitted based on the good faith
instruction that the district court provided. Cf United States v. Yeager, 331 F.3d
1216, 1224 (11th Cir. 2003) (“The jury could have accepted this defense and
acquitted Yeager by reference to the instructions, particularly the materiality
instruction. Therefore, we can find no error in the refusal of the reasonable reliance
instruction.”).
2.

Drug Pusher Instruction

Next, we find that the proposed “drug pusher” instruction is also an incorrect
statement of the law. The appellants argue that the Supreme Court’s decisions in
Moore, 423 U.S. 122, and Gonzales v. Oregon, 546 U.S. 243 (2006), taken
114

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 115 of 137

together, support giving a jury instruction that equates bad physicians to drug
pushers. We disagree. Like it or not, the term “drug pusher” connotes imagery of
back-alley illicit drug deals, not an established medical practice like PPSA. And
while the Supreme Court in Moore described the physician-defendant in that case
as a “large-scale [drug] ‘pusher,’” 423 U.S. at 143, the Supreme Court nowhere
suggested that acting as a drug dealer or pusher as conventionally understood is
necessary for a Controlled Substances Act conviction, id. at 139-42. Rather, as
previously noted, the Supreme Court held that a physician violates the Controlled
Substances Act if his conduct “fall[s] outside the usual course of professional
practice,” id. at 124, which could occur in a manner of different ways.
Additionally, this Court’s precedents applying Moore do not suggest that acting as
a drug pusher is necessary to convict a physician for violations of 21 U.S.C. § 841.
See Joseph, 709 F.3d at 1096; Tobin, 676 F.3d at 1282-83; Merrill, 513 F.3d at
1306; Williams, 445 F.3d at 1309.
As for the appellants’ reliance on Gonzales, that case has no application
here. Gonzales was not a criminal prosecution. Rather, the Supreme Court applied
administrative law to analyze an interpretive rule issued by the Attorney General
indicating that physicians who dispense controlled substances for use in physicianassisted suicides of terminally ill patients would be violating the Controlled
Substances Act because assisted suicide was not a “legitimate medical purpose”
115

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 116 of 137

under the Act. See 546 U.S. at 248—49. The Attorney General’s judgment
conflicted with Oregon law, which permitted the practice. The Supreme Court
struck down the interpretive rule because it exceeded the Attorney General’s
delegated authority under the Controlled Substances Act. Id. at 267. In addressing
the Act’s purpose and design, the Supreme Court stated that “[t]he [Act] and our
case law amply support the conclusion that Congress regulates medical practice
. insofar as it bars doctors from using their prescription-writing powers as a means
to engage in illicit drug dealing and trafficking as conventionally understood.” Id.
at 269-70. In describing the Act in such a way, the Supreme Court was referring to
its previous decision in Moore. But the Supreme Court nowhere displayed the
intention to upset or limit its holding in Moore; in fact, it cited Moore with
approval. See id. at 269.
Numerous courts have since rejected the argument that those statements in
Gonzales have any bearing on Moore's holding or that they limit the scope of
liability for physicians under § 841 to “drug or street dealer” activity. For example,
in United States v. Volkman, 797 F.3d 377 (6th Cir.), cert, denied, 136 S. Ct. 348
(2015), the Sixth Circuit held that “Gonzales did nothing to alter the reality that
‘knowingly distributing prescriptions outside the course of professional practice is
a sufficient condition to convict a defendant under the criminal statutes relating to
controlled substances.’” Id. at 386 (quoting United States v. Kanner, 603 F.3d 530,
116

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 117 of 137

535 (8th Cir. 2010)). In Volkman, the defendant proposed the following jury
instruction, derived from the Supreme Court’s statements in Gonzales: “In other
words, in order to find the defendant guilty, you must find that he used his
prescription-writing power as a means to engage in the illicit drug-dealing and
trafficking as conventionally understood.” Id. at 385. The Sixth Circuit held that
such an instruction was an incorrect statement of the law because it improperly
“cabined the scope of what the jury could consider.” Id. at 386. The court stated,
“If Volkman’s goal was to conjure up the unsavory specter of ‘street’ drug
dealing—complete with imagery of shady characters conducting quick, suspicious
handoffs—then his instruction was not an accurate statement of the law, for ‘street’
drug dealing is not necessary to prove a violation of the [Controlled Substances
Act].” Id.
Similarly, in Kanner, 603 F.3d at 533-35, the Eighth Circuit rejected the
defendant’s argument that the indictment should have included the above-quoted
language from Gonzales, holding that “Gonzales did not supplant the standard for
violations of the [Controlled Substances Act].” See id. at 535 (“Rather, post
Gonzales, ‘knowingly distributing prescriptions outside the course of professional
practice is a sufficient condition to convict a defendant under the criminal statutes
relating to controlled substances.’” (quoting United States v. Armstrong, 550 F.3d
382, 397 (5th Cir. 2008)); see also United States v. Lovern, 590 F.3d 1095, 1100
117

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 118 of 137

(10th Cir. 2009) (“Unlike Gonzales, we have before us no interpretive rule seeking
to define a practice as lacking any legitimate medical purpose .... Instead, in this
case the government sought to establish that the conduct of the . . . physicians was
inconsistent with the usual course of professional practice the old-fashioned way:
through witnesses and documentary proof at trial focused on the contemporary
norms of the medical profession.”). We agree with these courts that Gonzales did
nothing to disturb the holding of Moore, which sets out a standard for violations of
the Controlled Substances Act that is based solely on the statutory provisions
themselves. To require the jury to find that the appellants acted as drug pushers
would violate these principles.
3.

Civil Standard of Care Instruction

Finally, we address the appellants’ argument that the district court permitted
jurors to conflate civil and criminal standards by refusing to give their proposed
instruction because it would be too confusing for the jury. While the instruction
proposed by the appellants, which stated that “a Defendant’s negligence, failure to
meet a standard of care, or medical malpractice, on its own is not enough to
convict him”, is an accurate statement of the law, we do not agree that its exclusion
from the instructions impaired the appellants’ ability to adequately present their
defense.

118

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 119 of 137

First, there is no dispute that the district court instructed the jury on the
correct criminal standard for Controlled Substances Act violations. This instruction
is in keeping with this Court’s guidance in Williams that an instruction explaining
that the government must prove that a doctor dispensed controlled substances
“outside the usual course of professional practice . . . properly state[d] the standard
by which a [doctor’s] conduct must be judged.” 445 F.3d at 1307-08.
Nonetheless, the appellants argue that an instruction distinguishing the civil
standard was necessary because the government and several of its medical experts
confused the two during trial. The appellants point out that the government
conflated the terms “standard of care” and “usual course of professional practice”
when examining Dr. Greenberg. They also emphasize that Dr. Vohra actually
equated those terms in his testimony, and that while Dr. Aultman was never asked
to provide a definition of “the usual course of professional practice,” the
government regularly asked her opinion on whether certain conduct would be
within that standard. However, we find that the district court’s instruction at the
end of trial defining the criminal standard adequately cured any incorrect
references to the civil standard of care by experts or the prosecution.
Additionally, the district court instructed the jury that if the appellants acted
in good faith, they acted lawfully. Other courts have found that such an instruction
sufficiently covered that the jury was not to convict based on a civil standard of
119

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 120 of 137

care. See United States v. Mclver, 470 F.3d 550, 560 (4th Cir. 2006) (“The
inclusion of a good faith instruction is a plainspoken method of explaining to the
jury a critical difference between the two standards.”); United States v. Feingold,
454 F.3d 1001, 1012 (9th Cir. 2006) (jury instructions that informed the jury that
“[a] practitioner may not be convicted of unlawful distribution of controlled
substances when he distributes controlled substances in good faith to patients in the
regular course of professional practice” and that “the government must prove
beyond a reasonable doubt that the defendant prescribed or distributed the
controlled substance other than for a legitimate medical purpose and not in the
usual course of professional practice” correctly articulated the standard of liability
under § 841(a)(1)).
Finally, the appellants presented an expert to provide an explanation of the
“usual course of professional practice.” Dr. Warfield’s definition was that medical
malpractice is not outside the usual course of professional practice. At closing, the
appellants argued that malpractice is not enough to convict. Thus, the jury was able
to consider these standards in determining whether the appellants’ conduct was
criminal. See Joseph, 709 F.3d at 1097 (highlighting the fact that “[ejxperts for
both the prosecution and the defense testified about the accepted standard of
medical practice”).
D.

Ruan’s Sentence
120

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 121 of 137

Ruan also challenges the sentence imposed by the district court. First, he
argues that the district court clearly erred in finding that at least 10.6% of the
prescriptions written were illegal. Next, he argues that the district court clearly
erred when it applied an obstruction-of-justice enhancement based on his
testimony that he was unaware that one of his employees was forging
prescriptions. Then, he argues that the district court plainly erred by applying an
enhancement under U.S.S.G. § 2S 1.1 (b)(2)(B) because he was convicted under
§ 1956(h). He also argues that the district court clearly erred in calculating the
restitution amount based on the number of off-label prescriptions for TIRFs and
overmedicated patients. Finally, he argues that the district court erred in ordering
forfeiture for the RICO Act violation because the evidence was insufficient to
support his conviction. The government argues that any error in calculating the
guideline range was harmless because the district court said that it would have
imposed the same sentence, regardless of any errors in calculating the guidelines
range.
1.

Harmless Error

We first address the government’s harmless-error argument. Where a
defendant preserves a challenge to the guidelines calculations, we have held that
any error is harmless if (1) the district court stated.it would impose the same
sentence even if it decided the guidelines issue in the defendant’s favor, and
121

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 122 of 137

(2) assuming an error occurred and the lower guideline range argued for by the
defendant applied, “the final sentence resulting from consideration of the § 3553(a)
factors would still be reasonable.” United States v. Keene, 470 F.3d 1347, 1349
(11th Cir. 2006). This is because “[t]he Supreme Court and this Court have long
recognized that it is not necessary to decide guidelines issues or remand cases for
new sentence proceedings where the guidelines error, if any, did not affect the
sentence.” Id. (alteration in original). We need not reach the substantive
reasonableness issue where a district court’s decision is based on a clearly
erroneous fact. United States v. Slaton, 801 F.3d 1308, 1320 (11th Cir. 2015).
We examine “whether the sentence is substantively reasonable under the
totality of the circumstances.” United States v. Tome, 611 F.3d 1371, 1378 (11th
Cir. 2010). The party who is challenging the sentence bears the burden of showing
that it is “unreasonable in light of the record and the § 3553(a) factors.” Id.
The district court must impose a sentence that is “sufficient, but not greater
than necessary, to comply with the purposes” set forth in 18 U.S.C. § 3553(a)(2),
including the need to reflect the seriousness of the offense, promote respect for the
law, provide just punishment for the offense, deter criminal conduct, and protect
the public from the defendant’s future criminal conduct. 18 U.S.C. § 3553(a)(2).
Additionally, the court must consider: (1) the nature and circumstances of the
offense; (2) the history and characteristics of the defendant; (3) the kinds of
122

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 123 of 137

sentences available; (4) the guideline sentencing range; (5) any pertinent policy
statements; (6) the need to avoid unwarranted sentencing disparities among
defendants with similar records who have been convicted of similar conduct; and
(7) the need to provide restitution to any victims. 18 U.S.C. § 3553(a)(1), (3)-(7).
In determining whether to sentence a defendant outside the guidelines, a
district court must “consider the extent of the deviation and ensure that the
justification is sufficiently compelling to support the degree of the variance.” Gall
v. United States, 552 U.S. 38, 50 (2007). “[A] major departure should be supported
by a more significant justification than a minor one,” and the district court “must
adequately explain the chosen sentence to allow for meaningful appellate review
and to promote the perception of fair sentencing.” Id.
Here, the district court’s statement that it would have imposed the same
sentence did not render the alleged Guidelines errors harmless. If Ruan succeeded
on his Guideline challenges, the offense level would be 25, which, with a criminal
history score of I, results in a lower guideline range of 57 to 71 months. The
district court did not provide sufficient fact-finding or explanation to support an
upward variance from 71 to 252 months. See Gall, 552 U.S. at 50. Thus, the
sentence would have been substantively unreasonable, so the alleged Guidelines
errors were not harmless. See Keene, 470 F.3d at 1349.
2.

Drug Quantity Calculation
123

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 124 of 137

Next, we address each of Ruan’s arguments in turn. First, Ruan argues that
the district court clearly erred in finding that at least 10.6% of the prescriptions
written were illegal. When reviewing for procedural reasonableness, we consider
legal issues de novo, review factual findings for clear error, and apply the
guidelines to the facts with due deference, which is akin to clear error review.
United States v. Rothenberg, 610 F.3d 621, 624 (11th Cir. 2010). The district
court’s determination of the quantity of drugs used to establish a base offense level
for sentencing purposes is reviewed for clear error. United States v. Reeves,
742 F.3d 487, 506 (11th Cir. 2014). We may affirm for any reason supported by
the record, even if not relied upon by the district court. United States v. Chitwood,
676 F.3d 971, 975 (11th Cir. 2012).
To be clearly erroneous, a finding must leave us with a “definite and firm
conviction that a mistake has been committed.” Rothenberg, 610 F.3d at 624
(quoting United States v. Rodriguez-Lopez, 363 F.3d 1134, 1137 (11th Cir. 2004)).
A factual finding cannot be clearly erroneous when the factfinder is choosing
between two permissible views of the evidence. United States v. Saingerard,
621 F.3d 1341, 1343 (11th Cir. 2010) (per curiam). ‘“We accord great deference to
the district court’s credibility determinations’ of drug-quantity witnesses.” United
States v. Barsoum, 763 F.3d 1321, 1333 (11th Cir. 2014) (quoting United States v.
Gregg, 179 F.3d 1321, 1316 (11th Cir. 1999)).
124

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 125 of 137

The government bears the burden of establishing drug quantity by a
preponderance of the evidence. United States v. Rodriguez, 398 F.3d 1291, 1296
(11th Cir. 2005). The district court must ensure that the government “carries this
burden by presenting reliable and specific evidence.” United States v. Lawrence,
47 F.3d 1559, 1566 (11th Cir. 1995). In the medical context, drug distribution
requires proof that either: (a) the prescription was not for a legitimate medical
purpose; or (b) the prescription was not made in the “usual course of professional
practice.” Joseph, 709 F.3d at 1102.
When the drug amount that is seized does not reflect the scale of the offense,
the district court must approximate the drug quantity. United States v. Frazier,
89 F.3d 1501, 1506 (11th Cir. 1996). In estimating the drug quantity attributable to
the defendant, the court may rely on evidence demonstrating the average frequency
and amount of a defendant’s drug sales over a given period. Id. This determination
“may be based on fair, accurate, and conservative estimates of the quantity of
drugs attributable to a defendant... [but] cannot be based on calculations of drug
quantities that are merely speculative.” United States v. Zapata, 139 F.3d 1355,
1359 (11th Cir. 1998) (per curiam).
The drug guideline, § 2D 1.1 (a)(1), calculates a base offense level based on
the total “marihuana equivalent” of all drugs involved in all the defendants’
offenses. U.S.S.G. § 2D1.1 cmt. nn.7, 8(B). The highest base offense level (38)
125

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 126 of 137

applies for quantities over 90,000 kilograms; that is what the PSR applied here.
PSR Tf 65; U.S.S.G. § 2D1.1(c)(1). The marijuana equivalent of all the morphine,
oxycodone, methadone, hydromorphone, oxymorphone, and fentanyl defendants
prescribed over the course of the conspiracy was almost 855,000 kilograms. Here,
the district court did not clearly err in concluding that at least 10.6% of the
prescriptions were illegal. Testimony from two nurse practitioners, Palmer and
Parker, suggested that half of the clinic’s patients were overmedicated, and given
those nurses’ qualifications and length of employment at the clinic, the district
court was entitled to credit that testimony. Barsoum, 763 F.3d at 1333. Moreover,
the evidence at trial indicated that significant amounts of Ruan and Couch’s
practice occurred outside the usual course of professional practice, including:
altering prescription habits to further their financial interests; allowing a nurse
practitioner to forge prescriptions for his and other nurses’ patients; leaving pre­
signed prescription pads for nurses to use when the doctors were out of the office;
insufficiently safeguarding high-risk patients; ignoring signs of potential drug
diversion; failing to adequately get informed consent for prescriptions, especially
for off-label prescriptions; not conducting adequate examinations to diagnose
patients; and not first attempting more conservative care. The sheer breadth of
improper conduct at the clinic means that the district court did not clearly err in
concluding that at least 10.6% of the prescriptions were illegal.
126

USCA11 Case: 17-12653

3.

Date Filed: 07/10/2020

Page: 127 of 137

Obstruction-of-Justice Enhancement

Ruan next argues that the district court clearly erred in finding that he
obstructed justice. In reviewing the district court’s imposition of the
obstruction-of-justice enhancement under U.S.S.G. § 3C 1.1, we review the district
court’s factual findings for clear error and its application of those findings to the
Guidelines de novo. United States v. Doe, 661 F.3d 550, 565 (11th Cir. 2011). We
accord great deference to a district court’s credibility determinations when
applying the obstruction-of-justice enhancement based on perjury. United States v.
Banks, 347 F.3d 1266, 1269 (11th Cir. 2003).
Pursuant to § 3C 1.1, a defendant’s offense level is increased by two levels if
the defendant “willfully obstructed or impeded ... the administration of justice
with respect to the investigation, prosecution, or sentencing of the instant offense
of conviction,” such as by committing perjury. U.S.S.G. § 3C1.1 & cmt. n.4(B).
Perjury occurs where a witness gives deliberately false testimony regarding a
material matter, which is not caused by confusion, mistake, or faulty memory.
United States v. Dunnigan, 507 U.S. 87, 94 (1993).
“[I]f a defendant objects to a sentence enhancement resulting from [his] trial
testimony, a district court must review the evidence and make independent
findings necessary to establish a willful impediment to or obstruction of
justice . . . .” Id. at 95. To apply the enhancement, the district court must make a
127

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 128 of 137

factual finding that the defendant gave perjured testimony on a material matter.
United States v. Vallejo, 297 F.3d 1154, 1168 (11th Cir. 2002).
Here, the district court’s finding that Ruan testified falsely about knowing
about Palmer’s forgery is not clearly erroneous. In his email to Couch, Ruan
directed him to “talk to [Palmer] on cutting down” on the use of red flag drugs.
This email can reasonably be read to demonstrate that Ruan knew Palmer was
illicitly prescribing medication, especially when considered with the testimony that
others, who worked both in and outside the office, were aware that Palmer was
writing prescriptions. Because the district court was entitled to choose between two
reasonable constructions of the evidence, it did not clearly err in finding that Ruan
testified falsely. See Saingerard, 621 F.3d at 1343. Accordingly, we affirm as to
this issue.
4.

Money Laundering Conviction Enhancement

Next, Ruan argues for the first time on appeal that the district court erred in
applying a § 2S 1.1 (b)(2)(B) enhancement because he was convicted under
§ 1956(h). A failure to preserve a procedural objection at sentencing means that we
only review for plain error. United States v. Vandergrift, 754 F.3d 1303, 1307
(11th Cir. 2014). Under plain error review, we consider whether (1) an error
occurred, (2) the error was plain, and (3) the error affects substantial rights. United
States v. Olano, 507 U.S. 725, 732-36 (1993). When these factors are met, we may
128

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 129 of 137

exercise discretion and correct the error if it “seriously affects the fairness,
integrity or public reputation of judicial proceedings.” Id. at 736.
Under U.S.S.G. § 2SI. 1(b)(2)(B), a two-level sentencing enhancement
applies if a defendant was convicted under 18 U.S.C. § 1956. U.S.S.G.
§ 2S 1.1 (b)(2)(B). However, that enhancement does not apply “if the defendant was
convicted of a conspiracy under 18 U.S.C. § 1956(h) and the sole object of that
conspiracy was to commit an offense set forth in 18 U.S.C. § 1957.” U.S.S.G.
§ 2S1.1 cmt. n.3(C). If a defendant is convicted under § 1957, a one-level
enhancement applies. U.S.S.G. § 2SI. 1(b)(2)(A).
Here, the district court erred in applying the two-level sentencing
enhancement under § 2S 1.1 (b)(2)(B), and it should have applied the one-level
enhancement under § 2S 1.1 (b)(2)(A). However, this error did not affect Ruan’s
substantial rights. Ruan’s original offense level was 44, which was treated as 43
because that is the maximum offense level used by the Guidelines. Because
applying the correct enhancement would only reduce his offense level to 43, it
would not have changed the calculation of the guideline range. Accordingly, the
district court’s error did not affect Ruan’s substantial rights, so we affirm as to this
issue.
5.

Restitution Calculation

129

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 130 of 137

Next, Ruan argues that the district court’s restitution calculation was clearly
erroneous. “The district court’s factual finding as to the specific amount of
restitution is reviewed for clear error.” United States v. Futrell, 209 F.3d 1286,
1289 (11th Cir. 2000) (per curiam). “The district court’s decision to allow an
estimate of the victim’s loss in a particular case” is reviewed for “abuse of
discretion.” Id.
The Mandatory Victims Restitution Act (“MYRA”) provides that, in the
case of certain offenses, a defendant must make restitution to the victim of the
offense. 18 U.S.C. § 3663A(a)(l). In particular, the MYRA applies where a
defendant has been adjudicated guilty of: (1) a crime of violence; (2) an offense
against property or under 21 U.S.C. § 856(a), including offenses committed by
fraud or deceit; (3) an offense under 18 U.S.C. § 1365; or (4) an offense under
18 U.S.C. § 670. Id. § 3663A(c)( 1 )(A)(i)-(iv).
The amount of restitution ordered by a district court “must be based on the
amount of loss actually caused by the defendant’s conduct.” United States v. Liss,
265 F.3d 1220, 1231 (11th Cir. 2001). The government must establish the loss
amount by a preponderance of the evidence. 18 U.S.C. § 3664(e); United States v.
Valladares, 544 F.3d 1257, 1269 (11th Cir. 2008) (per curiam). This burden
“simply requires the trier of fact to believe that the existence of a fact is more
probable than its nonexistence.” United States v. Trainor, 376 F.3d 1325, 1331
130

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 131 of 137

(11th Cir. 2004) (quoting Concrete Pipe & Prods, of Cal., Inc. v. Constr. Laborers
Pension Tr.for So. Cal., 508 U.S. 602, 622 (1993)). Additionally, because
“criminals rarely keep detailed records of their lawless dealings, totaling up every
column and accounting for every misbegotten dollar . . . the preponderance
standard must be applied in a practical, common-sense way.” Futrell, 209 F.3d at
1292 (quoting United States v. Savoie, 985 F.2d 612, 617 (1st Cir. 1993)). As the
determination of the restitution amount is an “inexact science,” the government
“need not calculate the victim’s actual loss with laser-like precision, but may
instead provide a ‘reasonable estimate’ of that amount.” United States v. Martin,
803 F.3d 581, 595 (11th Cir. 2015) (first quoting United States v. Huff, 609 F.3d
1240, 1248 (11th Cir. 2010); then quoting Futrell, 209 F.3d at 1290).
Notwithstanding the government’s burden to prove the restitution amount, “[t]he
defendant bears the burden to prove the value of any goods or services he provided
that he claims should not be included in the restitution amount.” United States v.
Foster, 878 F.3d 1297, 1308 (11th Cir. 2018) (ellipsis omitted) (quoting United
States v. Bane, 720 F.3d 818, 829 n.10 (11th Cir. 2013)).
When a district court orders restitution, it “must explain its findings with
sufficient clarity to enable this [C]ourt to adequately perform its function on
appellate review.” Huff, 609 F.3d at 1248. To that end, the district court must

131

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 132 of 137

specifically find “whether the victim suffered a loss and the amount of those actual
losses.” Id. at 1249 (emphasis omitted).
Here, the district court ordered restitution to insurers BCBS, United
Healthcare, Medicare, and TriCare for 85% of the payments each insurer made for
TIRF medications that Ruan and Couch prescribed during the indictment period.
This percentage was based on evidence that no more than 15% of PPSA patients
had active cancer and that TIRF medications were indicated only for cancer-related
pain. Ruan argues that the 85% figure is overstated.
At sentencing, Ruan and Couch objected to the 85% figure, pointing out that
Dr. Aultman had opined that it was not inherently illegal to prescribe medications
off-label and that there was testimony from a BCBS representative that BCBS
sometimes approved TIRFs for a non-cancer diagnosis. The government responded
that even if non-cancer patients needed some kind of medication to control their
pain, there was ample evidence that Ruan and Couch prescribed Abstral and
Subsys to enrich themselves because they had a financial interest, not for
appropriate patient care, and that such conduct was also outside the usual course of
professional practice. Ruan now adds to his argument for the first time that
deducting only 15% for cancer patients is not enough because the government’s
charts showed that out of the 25 patients to whom each doctor was prescribing the

132

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 133 of 137

most TIRF medications, 44% of those patients, or 11 for each doctor, did have
cancer.
The evidence at trial does not point to any precise number of TIRF
prescriptions that were illegal. There is a possibility that PPSA’s few cancer
patients were prescribed TIRF medications at higher rates than its patients who did
not have cancer. There may also have been some patients without a cancer
diagnosis who were legitimately prescribed TIRFs off-label to control extreme
pain. However, in light of the impracticality of determining which of the thousands
of TIRF prescriptions were illegal,27 and when one also considers the abundant
evidence that the appellants prescribed millions of doses of TIRFs for their own
financial gain (i.e., their investments in Galena stock and their payments as Insys
speakers) rather than for the legitimate needs of their patients—a practice that
made them some of the top TIRF prescribers nationwide—we find that 85% of all
TIRF medications paid for by each insurer is a “reasonable estimate” of the actual
loss to those insurers. See Martin, 803 F.3d at 595.

27

We imagine that the only way to compute the exact losses that each insurer incurred by
paying for TIRF prescriptions written at PPSA would be to present testimony from all of the
patients who were prescribed TIRFs (over 1,000 during the indictment period) or opinions from
medical experts who have reviewed their files. A consideration of each patient’s medical needs
would be necessary to determine whether the prescriptions written were illegal or legitimate. The
MYRA does not require such “laser-like precision.” Martin, 803 F.3d at 595.
133

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 134 of 137

Moreover, it was Ruan’s burden “to prove the value of any goods or services
he provided that he claims should not be included in the restitution amount.”
Foster, 878 F.3d at 1308 (quoting Bane, 720 F.3d at 829 n.10). But when asked by
the district court at Couch’s sentencing, which was held first and in which Ruan
participated and adopted Couch’s counsel’s arguments, “What do you think is a
more appropriate figure?”, Couch’s counsel stated: “Your honor, I don’t have an
alternative figure.” It was not enough for Ruan to assert that the government’s
estimate of the insurers’ loss amount was improper, when that estimate was
reasonable based on the facts presented at trial. Ruan had to show the value of the
TIRF prescriptions he wrote that he claims were medically necessary, in order to
enable the district court to offset them against the restitution amount. See Foster,
878 F.3d at 1308; United States v. Bryant, 655 F.3d 232, 254 (3d Cir. 2011)
(emphasizing that the defendant has the burden of establishing offsets to restitution
because he is in the best position to know the value of the legitimate goods or
services provided to his victims). Ruan failed to carry that burden.
Ruan also separately argues that it was error for the district court to have
ordered restitution to be paid to insurers BCBS, United Healthcare, Medicare, and
TriCare for 50% of each insurer’s payments for the remaining Schedule II
prescriptions dispensed by PPSA during the relevant period. This percentage was
based on trial testimony from Palmer and Parker that at least half of PPSA’s
134

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 135 of 137

patients were overmedicated or had received prescriptions for larger doses of drugs
than they needed.
At sentencing, the government stated that some of the victim insurers felt
they were entitled to more than 50%—for instance, United Healthcare felt it was
entitled to 80%—but all four insurers ultimately agreed with the government that
50% was a fair and accurate calculation based on the trial testimony. The
government argued that it would be impossible to calculate which particular
Schedule II prescriptions were illegal and that 50% was a reasonable estimate
based on the evidence. Ruan and Couch disagreed, arguing that restitution should
only be ordered for the value of specific prescriptions experts had testified were
written outside the usual course of professional practice or not for a legitimate
medical purpose, describing those amounts as “miniscule.”
As with the TIRF prescriptions, the evidence at trial did not point to any
precise number of the remaining Schedule II prescriptions as being illegal.
Calculating the exact amount of loss to each of the four insurers would be
impractical, if not impossible. The MVRA justifies the use of approximation in
cases like this, provided the estimate is reasonable and based on a preponderance
of the evidence. Here, two different nurse practitioners, who had firsthand
knowledge of PPSA’s patients for years, each testified that at least half of the
patients were overmedicated or had received prescriptions for larger quantities of
135

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 136 of 137

drugs than they needed. This testimony was bolstered by the abundant evidence
that Ruan and Couch’s prescribing habits were consistently outside the usual
course of professional practice during the indictment period, as evidenced by their
allowing Palmer to forge prescriptions; leaving pre-signed prescriptions for nurses
to use; failing to obtain informed consent from patients before writing multiple
prescriptions for high doses of Schedule II drugs; and ignoring signs of drug
diversion. Additionally, the 50% estimate was conservative because all of the
illegal prescriptions were not included in calculating the restitution amount—only
those for Schedule II drugs, which does not include drugs like benzodiazepines and
Soma, the other two components of the dangerous “Holy Trinity” cocktail that the
appellants prescribed so often. See Futrell, 209 F.3d at 1292 (“So long as the basis
for reasonable approximation is at hand, difficulties in achieving exact
measurements will not preclude a trial court from ordering restitution.”). We thus
cannot say that the district court’s estimate that the insurers were each owed 50%
of payments they made for Schedule II drugs was speculative to the point of being
clearly erroneous.
Additionally, we find that the district court explained its findings with
sufficient clarity to enable us to perform our duty on appellate review. Ruan’s
judgment of conviction breaks down the amount of restitution that is owed
individually by Ruan to each insurer and the amount that Ruan owes jointly and
136

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 137 of 137

severally with Couch to each insurer. Ruan never objected to the actual losses
sustained by any insurer, instead objecting only generally to the method of
calculating the losses.
For these reasons, the district court did not abuse its discretion in
determining that the government had proven the restitution amount by a
preponderance of the evidence.28
III.

CONCLUSION
For the foregoing reasons, we vacate Ruan and Couch’s convictions on

Count 16 of the Superseding Indictment, and we remand the cases to the district
court for resentencing. We affirm Ruan and Couch’s remaining convictions and
sentences.
AFFIRMED IN PART, VACATED AND REMANDED IN PART.

Ruan also argues that the district court erred in ordering forfeiture because insufficient
evidence established a RICO Act violation. The government responds that Ruan’s forfeiture
argument is waived because it was raised in a perfunctory manner without supporting arguments
or citations, and that, in any event, the RICO conviction was valid. A party seeking to raise a
claim or issue on appeal must raise it “plainly and prominently” or otherwise the issue is deemed
abandoned. United States v. Jernigan, 341 F.3d 1273, 1283 n.8 (11th Cir. 2003). Ruan’s
argument regarding forfeiture does not appear to be an independent claim that his forfeiture was
illegal. Rather, his claim appears to be derivative of his claim that insufficient evidence supports
his RICO conviction. Because we affirm the RICO conviction, we uphold the forfeiture order
regarding the RICO violation.
28

137

USCA11 Case: 17-12653

Date Filed: 07/10/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.cal I.uscourts.gov

July 10, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 17-12653-DD
Case Style: USA v. Xiulu Ruan
District Court Docket No: 1:15-cr-00088-CG-B-2
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.call.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@cal 1 .uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Bradlv Wallace Holland. DP at 404-335-6181.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone#: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

USCA11 Case: 17-12653

Date Filed: 11/04/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal 1 uscourts.gov

November 04, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 17-12653-DD
Case Style: USA v. Xiulu Ruan
District Court Docket No: 1:15-cr-00088-CG-B-2
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Bradly Wallace Holland, DD/lt
Phone#: 404-335-6181
REHG-1 Ltr Order Petition Rehearing

USCA11 Case: 17-12653

Date Filed: 11/04/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-12653-DD

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
XIULU RUAN,
JOHN PATRICK COUCH,
!

Defendants - Appellants.

Appeal from the United States District Court
for the Southern District of Alabama

ON PETITIONS FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
Before WILSON and NEWSOM, Circuit Judges, and COOGLER,* District Judge.
PER CURIAM:
The Petitions for Rehearing En Banc are DENIED, no judge in regular active service on the
Court having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petitions
for Panel Rehearing are also denied. (FRAP 40)

* Honorable L. Scott Coogler, United States District Judge for the Northern District of Alabama,
sitting by designation.

ORD-46

